<html>
<title> - GENOCIDAL ATTACKS AGAINST CHRISTIAN AND OTHER RELIGIOUS MINORITIES IN SYRIA AND IRAQ</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                  GENOCIDAL ATTACKS AGAINST CHRISTIAN
                   AND OTHER RELIGIOUS MINORITIES IN
                             SYRIA AND IRAQ

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2014

                               __________

                           Serial No. 113-211

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-741 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                                 ------                                
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tom Malinowski, Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...     9
The Honorable Anne Richard, Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State..    17
Mr. Thomas Staal, Senior Deputy Assistant Administrator, Bureau 
  for Democracy, Conflict and Humanitarian Assistance, U.S. 
  Agency for International Development...........................    29
The Honorable Peter Galbraith (former advisor to the Kurdistan 
  Regional Government)...........................................    49
Thomas Farr, Ph.D., director, Religious Freedom Project, Berkley 
  Center for Religion, Peace, and World Affairs, Georgetown 
  University.....................................................    55
Her Excellency Pascale Esho Warda, president, Hammurabi Human 
  Rights Organization (former Minister of Immigration and 
  Refugees in the Iraqi Government)..............................    64
Mr. Johnny Oram, president, Chaldean American Chamber of Commerce 
  of California..................................................    79

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tom Malinowski: Prepared statement.................    12
The Honorable Anne Richard: Prepared statement...................    20
Mr. Thomas Staal: Prepared statement.............................    32
The Honorable Peter Galbraith: Prepared statement................    52
Thomas Farr, Ph.D.: Prepared statement...........................    58
Her Excellency Pascale Esho Warda: Prepared statement............    67

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    90
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statements for the record from:
  His Excellency Ibrahim N. Ibrahim of the Chaldean Eparchy of 
    St. Thomas the Apostle.......................................    92
  Mr. Johnny Oram of the Chaldean American Chamber of Commerce of 
    California...................................................    94
  Rev. Majed El Shafie of One Free World International...........    99
  Mr. Mirza Ismail of Yezidi Human Rights Organization-
    International................................................   107

 
                  GENOCIDAL ATTACKS AGAINST CHRISTIAN
                   AND OTHER RELIGIOUS MINORITIES IN
                             SYRIA AND IRAQ

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

        Global Human Rights, and International Organizations and

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The meeting of the subcommittees will come to 
order. Good afternoon to everyone.
    We are convening this extremely urgent hearing on the 
desperate plight of Christians and other religious minorities 
in Iraq and Syria. As images of beheaded American journalists 
James Foley and Steven Sotloff are seared into our 
consciousness, we would do well to honor their memories by 
recalling what they saw as their mission, to alert the world to 
the horrors committed by the fanatical terrorist group ISIS in 
Syria and Iraq: Children forced to view crucifixions and 
beheadings; women bartered, sold, and raped; prisoners lined up 
on their knees to be shot. This is the ISIS legacy.
    Today Christians and other religious minorities such as 
Yezidis, Shabaks, and Turkmen Shiites are not just facing a 
long winter without homes. They are not just hungry and thirsty 
and wandering from village to village in northern Iraq and 
Kurdistan. They are facing annihilation, genocide, by fanatics 
who see anyone who does not subscribe to its draconian and 
violent interpretation of Islam as fair game for enslavement, 
forced conversion, or death.
    If the phrase ``never again'' is to be more than a well-
meaning sentiment we simply give lip service to, then we must 
be prepared to act when we see genocide unfold before our very 
eyes. After the United States pulled out of Iraq in March 2011, 
we left in charge a Prime Minister hostile to political 
inclusion of all Iraqis beyond simply Shiites.
    The Islamic State of Iraq and the Levant, or ISIL, also 
known as the Islamic State in Iraq and al-Sham, or ISIS, saw an 
opportunity to exploit Sunni sentiment at this treatment and 
surged to fill the gap. We withdrew; they surged. This is not 
the junior varsity team of terrorists, as the President 
dismissively asserted earlier this year.
    Deputy Assistant Secretary for Iran and Iraq, Brett McGurk, 
has described ISIL as having unprecedented resources in terms 
of funds, weapons, and personnel. We have seen what ISIS is 
doing in Syria, beheading and crucifying Christians and 
political opponents, taking hostages and kidnapping religious 
leaders, blowing up churches and mosques, and forcing religious 
minorities to convert, flee with the clothes on their backs, or 
pay an exorbitant tax, or die.
    When ISIS overran Mosul in June, Mosul's 35,000 inhabitants 
not too old or sick fled for their lives. At checkpoints 
leaving the city, ISIS took the Christians' wedding rings, 
money, travel papers, medicines, and even their cars. Families 
walked carrying their children, pushing wheelchairs and elderly 
parents, mile after mile into the hot, barren, Nineveh Plain.
    As ISIS continued to gain territory in July and August, the 
Christians fled further north joining Yezidi and many other 
minorities trying to find safety in the Iraqi Kurdistan region. 
More than 1.7 million people have been displaced in Iraq this 
year, many were Christians who fled the brutal Syrian Civil 
War, now on the run again. Where will they be safe?
    Kurdistan, a region of 8.35 million people, currently hosts 
nearly 750,000 refugees. The Kurdish militias are underfunded 
and underarmed now that ISIS has captured U.S. heavy weapons 
across Iraq, yet they soldier on. I have received emails from 
bishops and nuns chronicling the dire needs of their flocks who 
are being exterminated and expelled from regions their people 
have occupied for millennia.
    The U.S. has, in the last few weeks, geared up for the 
humanitarian crisis. As of September 5, the U.S. has dedicated 
nearly $140 million in humanitarian assistance to Iraq, and 
USAID airlifted more than 60 metric tons of humanitarian aid 
into Kurdistan's capital of Erbil. We need, however, to make 
sure that the aid gets people to need it most. This means, of 
course, working with religious leaders who are the closest to 
those in need.
    We also have to invest more in our relationship with the 
Kurdistan Regional Government, a regional government which has 
taken on the aspects of a de facto national government and one 
whose brave militia have stood up against ISIS while members of 
the Iraqi Armed Forces have folded and fled.
    It must also be remarked and remembered with gratitude that 
the Kurdistan Regional Government has extended protection to 
Christians and other victims of religious persecution. While 
their record has not been perfect, the Kurds appear to be more 
tolerant of diversity, of thought, and belief than many of 
their neighbors.
    But aid alone is not the solution. The U.S. has already 
spent some $2.4 billion on the Syrian humanitarian crisis that 
rages on. We need shrewd power, a strategy for action that is 
in touch with reality on the ground, a strategy borne of 
thinking ahead and preparing in advance for the contingencies, 
so that we are not playing catch up while the enemy rapes, 
pillages, kidnaps, massacres, and amasses wealth and weapons.
    The reality for religious minorities is that their very 
lives are at risk as long as ISIS controls territory and 
continues to gain strength on the ground, drawing funds and 
fighters from around the globe. As Pope Francis has noted with 
regard to this crisis, and I quote, ``where there is unjust 
aggression . . . it is licit to stop the unjust aggressor.''
    Of course, that may indeed require the use of force, but it 
also requires using other means that are at our disposal. I 
have called for the establishment of a Syrian war crimes 
tribunal, introduced H. Con. Res. 51 to hold all sides 
accountable for the heinous atrocities they have committed.
    H. Con. Res. 51 introduced last September calls for the 
creation of an international tribunal like in Sierra Leone, the 
former Yugoslavia, and Rwanda, that would be more flexible and 
more efficient than the International Criminal Court--it has 
already been vetoed by the Russians anyway--to ensure 
accountability for human rights violations committed by all 
sides.
    I believe with a herculean effort pushed by the United 
States and other interested nations, past success in creating 
war crime courts can indeed be prologue. Such a tribunal would 
also draw upon past experience. We had two hearings, one by the 
full committee and one in my subcommittee, in which we heard 
from David Crane, the former chief prosecutor at the Sierra 
Leone tribunal. He and his tribunal were the ones that put 
Charles Taylor behind bars who has entered into the 50 years of 
his sentence. Nobody ever thought in the beginning that Charles 
Taylor would be behind bars, especially after the atrocities 
and the power that he wielded.
    Such a tribunal, like I said, would draw upon these past 
experiences, but it would also be a mechanism that is robust 
enough to right, or at least bring some justice, to the most 
egregious wrongs, yet minimal enough not to derail changes for 
peace due to rigidity.
    The Foreign Affairs Committee approved H. Con. Res. 51 on 
April 30, and our hope is that the House will take it up, but 
frankly the administration can take this up and do this any 
time it pleases.
    As ISIS does not respect borders, of course the idea behind 
this would be Iraq and Syria. Today, the black flag of ISIS 
flies over vast swaths of northern Iraq and even cities such as 
Fallujah, which we had won at such great cost. Indeed, ISIS 
says that they intend to see the black flag fly over the White 
House. Where the black flag flies, there is only death and 
misery. We have to do everything humanly possible to stop this 
cancer from spreading.
    Ms. Bass.
    Ms. Bass. Mr. Chairman, as always, thank you for your 
leadership and convening today's hearing on an important issue 
that is growing in severity and affecting various religious and 
ethnic minority populations in the region.
    ISIS continues to violate the human rights and religious 
freedom of minority groups in significant swaths of territory 
in both Syria and Iraq. Oh, I did want to acknowledge our 
colleague, Mr. Deutch, since this is a joint hearing, is not 
able to be here yet. Hopefully, he will join us, but he is in 
another hearing of the Ethics Committee, so he is not here with 
us today.
    And, Mr. Chair, you have named this hearing the Genocidal 
Attacks Against Christians and Other Religious Minorities in 
Syria and Iraq. And, you know, frankly, obviously I am very 
concerned about this, but the phenomena of ISIS and seeing them 
attack Muslims, I mean, one thing we know is that they don't 
seem to discriminate in their terror and what is going on in 
these countries.
    I recall, the whole world saw the video of them capturing 
the soldiers, the 250 soldiers, and marching them down, and 
then later the videos of them being executed. And I can assume 
that many of those soldiers were Muslims. So the phenomena in 
ISIS and to hear that al-Qaeda thinks that they are too extreme 
is really an ominous situation.
    Of course, I would like to thank our distinguished 
witnesses, and I am interested in hearing your perspective on 
the grave reality on the ground; specifically, how widespread 
the attacks have been on soldiers, women, and children, among 
other vulnerable groups. I am also interested in hearing your 
perspective on the atrocities that have recently occurred like 
the one that I just mentioned with the 250 soldiers, and of 
course we have to remember the two American journalists.
    In addition, thousands of individuals from minority 
religious groups have been forced to seek refuge across 
borders, and the chairman spelled that out in quite a bit of 
detail. I do hope that this hearing sheds light on the 
important nuances of the situation and what is needed going 
forward in order to protect human rights and religious freedom 
in the region. I am committed to working toward this end and 
look forward to working with my colleagues to find the most 
effective and sustainable solutions.
    Thank you.
    Mr. Smith. Thank you, Member Bass. Thank you very much.
    Next we will hear from the co-chair of this hearing, the 
chairman emeritus of the full committee and the chairwoman of 
the Middle East and North Africa Subcommittee, Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Smith, 
Ranking Member Bass. Thank you for your passionate words and 
for your longtime leadership on this important issue. You, Mr. 
Smith, have been a vocal and steadfast ally for all those who 
suffer and are denied their basic and fundamental rights, 
especially those who are targeted for persecution and 
harassment because of their religious beliefs.
    We, on this committee, have had several hearings focusing 
on religious minorities in the Middle East and on the 
humanitarian crisis in Syria and now in Iraq. Last September, 
Mr. Smith, I remember you remarked in your opening statement 
about how the Christians are not dying because they are in the 
war or as collateral damage. No. Their communities are being 
deliberately targeted, and it is important to remember that the 
Christian communities in Syria, as well as in Iraq, are both 
ancient communities that have long had their roots in the 
region, and even pre-date Islam by several centuries. But as we 
have seen, these communities are quickly dwindling in number as 
they face the ISIL threat in Iraq and in Syria.
    These vulnerable populations are taking the brunt of the 
unending humanitarian crisis in Syria as Assad, ISIL, other 
rebel groups, and the opposition, all continue to struggle for 
supremacy. Just 10 years ago, the Christian population in Iraq 
numbered 1.5 million people, and before Assad began his 
campaign to quell calls for reform and democracy with military 
force and upended the entire country, Christians numbered close 
to 2 million in Syria.
    Today, after 3\1/2\ years of brutality and unending 
violence, about one-third of Syria's Christians have been 
forced to flee their centuries old homes with many having been 
beaten, tortured, forced to convert, or murdered. Their 
churches have been destroyed, their homes robbed, their 
children raped or kidnapped, and the plight of Iraq's 
Christians is just as bad, if not worse.
    There are now less than 400,000 Christians in Iraq. Many 
faced the same fate as those in Syria, forced to flee, convert, 
or be killed. Tens of thousands, if not more, have fled to 
Erbil to seek refuge in Kurdistan, away from the ISIL scourge. 
What was once Iraq's most populated Christian town is now down 
to just a few dozen, and this is not something new.
    The persecution of Christians, and in fact many other 
religious minorities in the Middle East and North Africa and 
elsewhere, has been rampant and prevalent for years. But it 
took the threat of the extinction of the Yezidis in Iraq just a 
few weeks ago for the administration to finally take any 
meaningful action in defense of a persecuted religious minority 
in Iraq or Syria.
    It was certainly the right thing to do, but my question is: 
Why did it take so long for the administration wake up to the 
realization that it isn't just the Yezidis who are being 
targeted for extinction by these radical and fundamental 
Islamist ideologues, but it is Christians, too, who have 
suffered greatly.
    This is not a political issue, Mr. Chairman, this is about 
right and wrong, about a belief in our ideals and our morals 
that everyone everywhere, that is about justice, that is about 
freedom of religion, everyone should be able to live freely and 
openly without fear of persecution and be able to practice 
their faith.
    When President Obama spoke to the American people about his 
decision to intervene in Libya he said, ``Some nations may be 
able to turn a blind eye to atrocities in other countries. The 
United States of America is different. And as President, I 
refuse to wait for the images of slaughter and mass graves 
before taking action.''
    But where has that leadership been in Syria and Iraq? Why 
have we allowed the Christians to be persecuted and murdered to 
the brink of extinction without taking action? Taking action 
against ISIL is an important step further, but leaving Assad in 
power will not fix the problem because he is part of the 
problem.
    Now we are left with even more difficult decisions than 
ever, and we cannot, for the sake of the Christian communities 
in Iraq and Syria and the other religious and ethnic minorities 
in the region, dither and remain indecisive or non-committal 
any longer. These crises are not new, and we on this committee 
have been highlighting them for years now.
    The administration has had plenty of time to hash out a 
clear set of objectives and map out a strategy, and it is way 
past time that the President presented that to the American 
people, to those who need our assistance, and to those who seek 
to harm us.
    Thank you, Mr. Chairman, thank you, Ms. Bass, for this 
joint hearing.
    Mr. Smith. Thank you very much, Chairman Ros-Lehtinen, for 
your very eloquent statement.
    Mr. Vargas.
    Mr. Vargas. Thank you very much, Mr. Chair. And I want to 
thank both you and the other chair and the ranking members for 
holding this very important and very timely hearing.
    We have seen ISIS seize the land of the Nineveh Plain and 
force Christians and other religious minorities to flee, to 
convert, or to be killed. We have seen the horror and now we 
need to act.
    I have recently introduced the Nineveh Plain Refugee Act of 
2014, which would provide asylum relief for religious 
minorities in ISIL-held territories. This bill lowers the 
threshold for admission and allows religious minorities in 
ISIL-held territories to apply directly to the United States 
for admission.
    I would also like to thank those that are here to testify, 
but I would like to add this, that America has always been a 
refuge for those that have been persecuted around the world. 
And I hope that we can open our doors for these people that 
need a place to go. Many of them have family members here in 
the United States that are begging for them to come and join 
them. So I proposed this bill. I hope that we can act on it and 
save lives.
    Again, thank you very, very much for this hearing.
    Mr. Smith. Mr. Vargas, thank you very much.
    Mr. Schneider?
    Mr. Schneider. Thank you, Mr. Chairman. Thank you for 
calling this hearing today on a crucial issue. As my colleague 
from Florida indicated, the United States is different. We do 
not turn a blind eye. And I think of the line from scripture, 
``Justice, justice, shall you pursue'' and the importance that 
we, not just in the United States, but around the world, do 
seek justice by not turning a blind eye, reflecting on Martin 
Luther King's words of injustice anywhere is a threat to 
justice everywhere.
    And what is happening in Syria and Iraq, not just the 
Yezidis, but so many religious minorities who are coming up 
severe persecution and threat, it is unacceptable. We, as a 
nation, the United States, are a nation of many diverse 
peoples, and we celebrate and embrace that diversity. But we 
can't just focus on the United States; we need to make sure 
that we are supporting minorities and religious minorities to 
make sure that they have the freedom to practice their faiths 
and do so in security.
    So thank you again, and I look forward to hearing from the 
witnesses.
    Mr. Smith. Thank you very much.
    Mr. Yoho?
    Mr. Yoho. No comments.
    Mr. Smith. Mr. Cotton?
    Mr. Cotton. Thank you, Mr. Chairman. I appreciate the 
opportunity to make a brief statement. Obviously, the barbaric 
actions of the Islamic State have brought the persecution of 
Christians more immediately in front of the American people, 
crucifying Christians or even burying them alive, cleansing 
them from Mosul, the ancient Biblical town of Nineveh, this is 
not a new phenomenon. This is something that has been happening 
for many years.
    When I served in Iraq in 2006, we saw the persecution of 
Christians in the neighborhoods in Baghdad where my soldiers 
and I patrolled. It is something that the United States cannot 
stand idly by and tolerate, especially when it is perpetrated 
by enemies that mean to strike the United States here and the 
United States homeland. It is a reminder that they are our 
enemies not because of anything we have done in the world but 
because of who we are and what we stand for.
    We are a country built on freedom, and the first of those 
freedoms is the freedom of religion, and they want to strike us 
because of those freedoms. It is important that we have the 
courage to stand up for our own national security and for the 
oppressed minorities in places like Iraq.
    Thank you very much. I yield back.
    Mr. Smith. Mr. Cotton, thank you very much. And thank you 
again for your extraordinary service to our country, both in 
government as well as in the military.
    I would like to now recognize Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. What we are 
witnessing in Iraq and Syria is a form of genocide. Consider 
the options fighters for the Islamic State of Iraq and the 
Levant force upon religious minorities living within territory 
under the group's control. Individuals and families must decide 
under threat and duress if they are going to pay a special tax, 
evacuate, convert, or be executed.
    While the targeted persecution of religious minorities is 
hardly the sole transgression of ISIL and similar radical 
groups operating in Iraq and Syria, it is certainly one that 
has commanded the world's attention. In addressing this 
immediate threat, we can take steps to protect both religious 
and ethnic minorities as well as the broader population.
    The violence in Syria and Iraq and the commensurate rise of 
ISIL threatens what 2,000 years of history has failed to do--
the illumination of a culturally rich, ancient Christian 
community. America cannot stand idly by as religious fanatics 
destroy other religious communities who have lived side-by-side 
for almost two millennia.
    Tonight the President plans to address the nation regarding 
our path forward against ISIL. Bringing this issue before the 
Nation, he will no doubt address the public butchery emanating 
from ISIL-controlled regions of Syria and Iraq. This includes 
the well broadcast videos of the beheadings of American 
journalists James Foley and Steve Sotloff, as well as the 
aggressive programs of genocide ISIL has carried out in the 
region.
    I know we wish the President well, and I know we have an 
opportunity, Mr. Chairman, finally for this Congress to come 
together on a bipartisan basis to provide some basis of support 
for the President's proposed actions. But I do think it is 
really important we also manage expectations.
    This is not going to be an easy enterprise. And, frankly, 
the goals and objectives are nowhere near as clear as those we 
faced in the post-9/11 world and Afghanistan with al-Qaeda.
    But ISIL has to be pushed back. Communities have to be 
protected, and the interests not only of the United States but 
of its regional allies must be also protected. So I look 
forward to this hearing, Mr. Chairman. I know we are about to 
call votes. I thank you for hosting it. I think the timeliness 
of it is very important, and I know we all look forward to the 
President's remarks tonight for further guidance and 
leadership.
    And with that, I yield back.
    Mr. Smith. Thank you very much.
    Mr. Clawson.
    Mr. Clawson. As I prepared for today's committee meeting, I 
was struck by how difficult of a map this is, how difficult and 
tough of a neighborhood this is, the ruthless nature of the 
opposition that we face, and the vulnerable nature of many of 
the religious groups, including those of you here today. I 
welcome you because we stand with you.
    I think that in times of great challenge we need even more 
fortitude and strength. Now is a good time for leadership, to 
protect vulnerable Christian groups, to back up our friends, 
and to restore a little bit of order in the world. So I hope 
that the U.S. will step up and show the leadership that the 
world needs and you who have come today are clearly asking for.
    I yield back.
    Mr. Smith. Mr. Kinzinger, any opening comments?
    Mr. Kinzinger. I will just say quickly, it is--and thank 
you all for being here. Thank you for holding this hearing. It 
is a very important issue, and I hope to hear, as was said 
earlier, from the President. As Mr. Connolly said, I hope to 
hear from him tonight a very solid plan on how to eradicate 
this cancer in the Middle East.
    And with that, Mr. Chairman, I will yield back. Thank you.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. I just wanted to thank both chairmen for their 
leadership on this particular issue. Thank you for being here 
to testify.
    I know about 4 weeks ago I listened to a number of folks 
come in about the genocide that was happening in Iraq, and it 
wasn't covered in the media, and it wasn't even being really 
talked about. Now we talk about it every day.
    But, sadly, there is persecution that goes on each and 
every day, more than just with ISIS. It happens--people in this 
room have experienced it for years and years, and so we must do 
what we can and I remain committed to do all that I can to make 
sure that this issue doesn't just disappear, that it is not 
just a hearing, but that we take real decisive action to make 
sure that those who are being persecuted don't have to live in 
fear any longer.
    I yield back.
    Mr. Smith. Okay. I would like to now introduce our three 
distinguished witnesses for the first panel, beginning first 
with Tom Malinowski, who was sworn in as Assistant Secretary of 
State for Democracy, Human Rights, and Labor, in April 2014. 
Previously, from 2001, he was Washington director for Human 
Rights Watch.
    Prior to that he served as senior director on the National 
Security Council at the White House, and was a speechwriter for 
Secretaries of State Warren Christopher and Madeleine Albright, 
and a member of the policy planning staff at the Department of 
State. He began his career as a special assistant for Senator 
Daniel Patrick Moynihan.
    We will then hear from Ms. Anne Richard, who is the 
Assistant Secretary of State, for Population, Refugees, and 
Migration, a position she has held since 2012. Ms. Richard's 
previous government service includes time in the State 
Department, the Peace Corps, and the Office of Management and 
Budget. She also worked at the Council on Foreign Relations, 
the International Rescue Committee, and was part of the team 
that founded the International Crisis Group.
    She testified before a subcommittee hearing earlier this 
year on the Central African Republic, and so welcome back.
    We will then hear from Mr. Thomas Staal, who is currently 
Senior Deputy Assistant Administrator in the Bureau for 
Democracy, Conflict and Humanitarian Assistance at the U.S. 
Agency for International Development. His previous experience 
with Iraq includes serving as USAID's Mission Director in Iraq 
from 2012 to 2013, serving as USAID regional representative for 
southern Iraq, where he oversaw all USAID projects in that part 
of the country, and as the director of Iraq Reconstruction 
Office in Washington.
    Before joining USAID, Mr. Staal worked for World Vision as 
their country representative in Sudan.
    Secretary Malinowski, please proceed.

STATEMENT OF THE HONORABLE TOM MALINOWSKI, ASSISTANT SECRETARY, 
 BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT 
                            OF STATE

    Mr. Malinowski. Mr. Chairman, thank you so much, Madam 
Chair, members of the committee. In the State Department, 
especially in my little bureau dedicated to human rights and 
religious freedom, we have been watching this nightmare unfold, 
including growing sectarianism in Iraq, attacks on members of 
religious minorities for some time.
    As you know very well, Christians in Iraq and other 
minorities have been under severe stress well before the 
horrors of this summer, and we have been in very close touch 
with these communities, working with them, assisting them, for 
a great period of time.
    And when ISIL started taking territory, first in Raqqa in 
Syria last year, on to Mosul this year, when it started forcing 
people to convert to its warped vision or be killed, when it 
started crucifying even members of its own Sunni sect, when it 
started a targeted and systematic drive to eradicate entire 
religious communities from their ancestral homelands, we were 
horrified, but we also saw it as the logical extension of the 
cancer that groups like this represent.
    Now, in early August, we faced a particularly dramatic 
moment. Thousands of people, members of the Yezidi ethnic 
minority group in the Sinjar district of Iraq, found themselves 
driven from their homes and trapped on a mountain, a discrete 
geographical space, surrounded but not yet assaulted by ISIL 
fighters, with just days left before they ran out of water or 
food and would face certain death.
    Representatives of the Yezidi community contacted my staff 
to share the stories of their suffering and their plight on 
that mountain. Our contacts told us about hearing children 
crying for water in the background of phone calls. One man told 
us how he was on the phone with his brother, called him back 5 
minutes later, his brother had been shot in the head by ISIL 
forces who were chasing the group at the time.
    Messages relayed from that mountain by cell phones with 
dying batteries, messages that told us exactly, with GPS 
coordinates, where the survivors were hiding, where the ISIL 
forces were amassing, made their way through my office, 
throughout the State Department, to the White House, to the 
Pentagon, on to CENTCOM.
    And, as you know, on August 7, within days of this crisis 
beginning, President Obama authorized, first a humanitarian 
airlift, then a series of strikes, to break the seizure of the 
mountain and protect the evacuation route as people were 
escaping.
    Shortly thereafter, a similar situation arose in the town 
of Amerli, where we again acted to break the siege of the 
minority community that was surrounded by ISIL. One woman who 
spoke to us recently, who had made a 50 kilometer hike from the 
village where she and her family had been held captive, through 
the wilderness to get back to Mount Sinjar and to this 
evacuation route that we had opened, told us, ``. . . my 
husband my two children, and I--were on the run from ISIS. 
After 20 hours of walking . . . everyone was terrified, 
everyone was shaking, crying. We could only calm down after 
hearing U.S. jets above us. We felt `There is still someone 
there to save us.' ''
    Now, a lot of people weren't able to flee. Those are the 
happy stories, and there are many, many unhappy ones that are 
unfolding still today. We are especially anguished by the 
plight of thousands of women who have been kidnapped by ISIL 
from a variety of groups and held as spoils of war or sold in 
markets as sex slaves.
    This is obviously still the beginning. These discrete 
rescues are not enough. We need to defeat ISIL. We need to 
mount the effort that the President is mounting to eradicate 
this threat. And as we look to that, let me just make a few 
simple points.
    First of all, ISIL is unique, not because it uses bombings, 
assassinations, beheadings, which are sadly commonplace among 
terrorist groups, but because it targets entire groups of 
people simply because of who they are. This casting aside of 
all limits, that is what makes this so particularly dangerous, 
and that is why it is absolutely imperative that those who 
commit such acts not be allowed to project a narrative of 
invincibility and success to others who may follow their 
example.
    Second, ISIL is not self-limiting. It is not going to 
exhaust itself. People with the power to stop it are going to 
have to take action to stop it.
    Third, that is what we are going to do. As President Obama 
has said, and as he will explain further tonight, these murders 
have stiffened our resolve and repulsed and united the entire 
world as well. And that creates an opportunity out of this 
disaster and tragedy, to build a coalition that includes the 
countries in the Middle East most immediately threatened and to 
confront these killers with allies from all the communities 
that ISIL has terrorized--Christian, Shi'a, Yezidi, Sunni, and 
others--and that is what we are doing.
    Finally, very, very importantly, we know that if we want to 
protect religious minorities in Iraq and Syria and beyond, it 
is not going to be enough just to defeat ISIL militarily. We 
have to insist the governments in the region govern for all 
their people. That is why we insisted that additional action in 
Iraq depended on a more inclusive government there, and I think 
that was the right thing to do.
    Secretary Kerry is in Baghdad today, and this is a central 
part of his message. Just a few hours ago he said, ``. . . the 
fundamental principle of organization for this entire new 
government thus far has been that we must move in a different 
direction from the direction that has existed in these last 
years. And that direction was one of sectarian division, of 
exploitation of divisions, of political retribution, even 
political arrests, political accusations.''
    Those who have been driven from their homes by ISIS should 
be able to return to their homes in safety and security with a 
say and a stake in the Government of Iraq.
    So I will just end by saying ISIL abuses human rights, but 
it is also the product of abuse of human rights in Syria and 
Iraq, and that is a lesson for all of us, and that is a lesson 
that is going to guide our strategy going forward.
    Thank you very much.
    [The prepared statement of Mr. Malinowski follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Secretary.
    Anne Richard.

 STATEMENT OF THE HONORABLE ANNE RICHARD, ASSISTANT SECRETARY, 
BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. DEPARTMENT 
                            OF STATE

    Ms. Richard. Thank you very much, Chairman Smith, Chair 
Ros-Lehtinen, Ranking Member Bass, other members of these two 
subcommittees. Thank you very much for holding the hearing 
today on this important issue.
    My bureau, the Population, Refugees, and Migration Bureau, 
depends on and benefits from your support all year round on a 
number of issues and crises all around the globe. Please accept 
my full testimony for the record.
    In June, the U.N. refugee agency, UNHCR, announced that for 
the first time since World War II the number of refugees, 
asylum seekers, and displaced people worldwide exceeds 50 
million people. The list of complex crises is long. The 
chairman well knows the list in Africa includes instability and 
violence in the Central African Republic and South Sudan, 
refugees also fleeing longer term crises, the spread of Ebola. 
In the Middle East, we are in the fourth year of the Syria 
crisis, and also have witnessed conflict in Gaza this summer.
    We welcome the opportunity today to discuss the situation 
in Iraq, particularly for minorities, our response to it, and 
how it relates to our response to the Syria crisis. My remarks 
will focus on aid to displaced people fleeing the violence, and 
in my testimony for the record we outline the advance of 
Islamic State of Iraq and Levant, or ISIL, forces. But the main 
point I want to make is that it has driven an estimated 1.8 
million Iraqis from their homes.
    Included in these numbers are members of minority groups 
who have, as you said, deep roots in Iraq. Mr. Chairman, you 
said they have occupied area there for millennia. Mr. Connolly 
said they are ancient, they go back to ancient times there.
    According to the State Department's 2013 International 
Religious Freedom Report, approximately 3 percent of Iraq's 
population is composed of Christians, Yezidis, Sabean-
Mandaeans, Baha'is, and others, and a very small number of 
Jews. In addition, Iraq has sizeable Turkmen and Shabak 
minority communities, many of whom reside in northern Iraq.
    While the United States tries to help all vulnerable people 
in war-torn areas, we know that minority communities can face 
special peril, and they deserve our special attention. Prior to 
the 2014 conflict, there were an estimated 500,000 Christians 
and 500,000 Yezidis living throughout Iraq with large 
communities living in Nineveh. Now, most members of religious 
minority communities have fled Nineveh.
    In just 1 week in August, 200,000 Yezidis from Nineveh, 
Sinjar District, fleeing ISIL advances, poured into the Kurdish 
region, and many fled with little more than the clothes on 
their backs. In the Kurdish region, they joined hundreds of 
thousands of other displaced Iraqis, including approximately 
100,000 Christians who escaped the brutal occupation of Mosul 
and nearby communities.
    UNHCR estimates that the Kurdish regions of northern Iraq 
now host more than 1 million people, and it is a mixed 
displacement, mostly Iraqis who are displaced but also over 
200,000 Syrian refugees. ISIL has demonstrated unbounded 
bigotry and brutality toward ethnic and religious minorities. I 
don't have to tell you this. You all know it and have included 
that in your statements, as has my colleague, Tom Malinowski.
    Our main message is: We care. The U.S. Government has long 
focused on the rights and safety of Iraq's vulnerable religious 
and ethnic minorities, and that is especially true today. The 
U.S. Embassy in Baghdad and Consulate in Erbil are in daily 
contact with the Iraqi Government, the U.N., and other aid 
agencies in Iraq to ensure that they can reach, protect, and 
aid displaced Iraqis, including minorities.
    My testimony goes into some detail about the humanitarian 
assistance efforts we made this summer. Tom Malinowski has 
already told you a little bit about the extraordinary measures 
taken this summer to aid imperiled civilians, including air 
drops of aid to Yezidis trapped on Mount Sinjar, and then also 
later the town of Amerli received air drops after ISIL 
attempted to starve the town's Shi'a Turkmen population.
    While military deliveries of humanitarian aid are a last 
resort, and not recommended if other options are available, 
these were desperate situations where people were in mortal 
danger, cut off from assistance by land, air drops were the 
only possible means of getting them lifesaving aid, and we are 
very grateful to our colleagues in the U.S. military who staged 
those.
    We also have faced challenges because families have had to 
flee multiple times, as the places where they initially sought 
refuge turned into battle grounds. In late June, for examples, 
clashes between ISIL and Kurdish peshmerga forces drove 
thousands of Christians from their homes in the Hamdaniya 
District of Nineveh to the Kurdish regions. When the clashes 
died down, some Christians returned home but were forced to 
flee a second time in August when ISIL again advanced on their 
communities.
    In my testimony, I talk about the overall U.S. and 
international response. Humanitarians have launched what U.N. 
High Commissioner for Refugees Antonio Guterres described as 
the single largest aid push we have mounted in more than a 
decade. UNHCR and other aid agencies have been present in the 
Kurdish regions of Iraq helping Syrian refugees since 2012. In 
fact, I went to the Kurdish regions of Iraq last December to 
talk to them about what they were doing hosting Syrians. And so 
I have subsequently met with some of these same contacts here 
in Washington to talk about this latest wave of people fleeing 
violence who have come in from other parts of Iraq.
    UNHCR continues to be a key part of this global effort. On 
August 19, the first of UNHCR's chartered cargo jets arrived in 
Erbil with 100 tons of emergency relief supplies to be 
distributed throughout Iraq for displaced Iraqis who now are 
living in unfinished buildings and parks or by the roadside. 
And the United States was one of the first donors to contribute 
to humanitarian relief efforts in Iraq.
    And you probably heard that today Secretary Kerry in 
Baghdad announced another aid package, an additional $48 
million in humanitarian aid. So the total U.S. Government 
humanitarian funding for Iraqis this fiscal year is more than 
$186 million. This includes the new aid announced by the 
Secretary, programs for nearly 1 million Iraqis previously 
displaced in the period 2006 to 2008, and for Iraqis who are 
refugees in the region living in other countries.
    The U.S. Government provides humanitarian aid according to 
greatest need and does not discriminate based on religious, 
ethnic, or political considerations. But, clearly, the 
minorities that we are talking about today are among the most 
vulnerable. What we provide is food, shelter, water and 
sanitation, and medicine. Other core relief items include 
mattresses, blankets, fans, kitchen sets, jerry cans, and 
hygiene kits.
    We are very happy that the Kingdom of Saudi Arabia provided 
$500 million to the U.N. in June. That helped U.N. agencies 
ramp up quickly, airlift critical supplies, and procure and 
distribute shelter supplies. Other countries have also come to 
help. United Kingdom, the European Union, Kuwait, Australia, 
Norway, Sweden, Turkey, Japan, and New Zealand are some of the 
other countries who are donating.
    In terms of next steps in Iraq, displaced Iraqis need 
places to live and cash to pay rent, and UNHCR is helping to 
construct 26 camps for displaced persons. But I have to tell 
you that areas that have come under siege, including Anbar and 
Nineveh, remain difficult, if not impossible, to reach. 
Humanitarian agencies continue to try to negotiate access and 
deliver assistance when and where they can.
    The United States is working hard to build a coalition of 
governments committed to supporting the Government of Iraq, so 
that it in turn can protect its own people, especially minority 
communities.
    I think that if you refer to my written testimony you will 
see that I talk about what we are doing for refugees in each of 
the countries to which some of these Iraqis have fled the 
neighboring countries--Turkey, Jordan, Lebanon, and Syria, and 
then also I have a section on the potential of resettling some 
of the refugees in other countries, including our own. And I am 
happy to answer any questions you have about that in the Q&A.
    So let me stop there and assure you, though, that the U.S. 
Government will continue to use every means available to 
protect and assist vulnerable Iraqi civilians, including 
minorities.
    Thank you.
    [The prepared statement of Ms. Richard follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Ms. Richard, thank you so very much for your 
testimony.
    Mr. Staal.

    STATEMENT OF MR. THOMAS STAAL, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Staal. Chairman Smith, Chairman Ros-Lehtinen, Ranking 
Member Bass, and members of the two subcommittees, thank you 
very much for this hearing and for inviting me to testify on 
USAID's efforts to provide humanitarian assistance to this very 
needy group.
    The daily atrocities that we have been hearing about 
committed by ISIL against the Iraqi people, especially the 
violence targeting religious and ethnic minorities, the 
treatment of women and children, is unconscionable. And for me 
this crisis is particularly painful to watch unfold as I spent 
my early years as a child in Iraq, the son of missionaries 
working there.
    Some of my first and fondest memories come from navigating 
the canals of old Basra or gliding through the marshes in a 
canoe, and I have returned to Iraq many times, including as the 
first USAID representative in southern Iraq, as Chairman Smith 
mentioned, in 2003 and 2004, and then most recently last year 
when I served as the USAID Mission Director in Baghdad. And I 
now have the privilege of leading the USAID Iraq Taskforce here 
in Washington.
    As my colleagues have outlined, the scope of the present 
humanitarian crisis is enormous. The pace of deterioration 
since the fall of Mosul and Nineveh Plains is staggering.
    In early August, the world's attention was really focused 
because of the plight of the thousands of Yezidis trapped on 
Mount Sinjar. As Mr. Malinowski mentioned, we received 
firsthand accounts from individuals on Mount Sinjar of the 
horrific circumstances there. And from USAID, we quickly 
deployed a DART team, Disaster Assistance Response Team, to 
Erbil to coordinate our response there.
    We worked closely with the military on the seven air drops 
and then joined in an on-the-ground assessment on the mountain 
to make sure that our assistance was reaching the right people, 
and we found that it in fact had helped to save lives.
    This DART that we have there is working closely with the 
international humanitarian community, and our partnerships with 
Christian and other faith-based organizations there and here 
are critical in our response efforts. When I lived in Iraq, I 
met with many of these groups myself, and some of them even 
remembered my family when I talked to them back in Basra.
    I recently had the privilege to meet with both Iraqi and 
U.S.-based leaders of the Chaldean, Assyrian, Yezidi, and other 
minority groups here in Washington. Regular communication with 
these groups is vital, of course, allowing us to get real-time 
information and connect them to the broader international 
assistance that is going on.
    In fact, just this morning I spoke with Archbishop Warda in 
Erbil, a Chaldean leader there, who reported that the immediate 
needs of Christian IDPs are largely being met, the basic needs, 
but the long-term issues are still there, especially coming up 
to the winter. Our team also is regularly speaking with 
Christian families, Christian leaders. They have gone to 
several locations to make sure that the assistance is actually 
getting to the people there.
    We are focused from USAID's side on filling gaps in the 
response effort, advocating within the international community 
for an efficient allocation of resources and effective response 
coordination, since, as Anne said, there are so many 
organizations and donors providing assistance, coordination 
becomes very important.
    And then, for example, last week USAID airlifted 60 metric 
tons of humanitarian aid, as Chairman Smith mentioned. And that 
aid, by the way, is already being distributed, and some of it 
even went into the town of Amerli, just in the last couple of 
days. And we have another airlift arriving in the next day or 
two.
    Now, lack of shelter is the most serious concern right now 
as about 45 percent of the IDPs in Iraq are living in public 
buildings like schools, open spaces, or camps across the 
country. USAID is working to provide additional shelter support 
to ensure access for emergency and transitional shelter.
    In addition, as winter in northern Iraq descends, coming 
not too far away, we are working with partners to reach the 
most vulnerable populations to make sure that winterization 
assistance is being provided, things like clothing, blankets, 
and mattresses.
    We are also working to address public health concerns, 
including provision of safe water, essential hygiene supplies, 
and access to health services for the IDPs. Additionally, USAID 
has deployed an emergency food officer as a part of the DART to 
monitor food needs. And, by the way, since mid-June, the World 
Food Programme reports that they have actually reached 838,000 
Iraqis with food aid throughout the country. We are focused on 
addressing massive protection and trauma issues that the 
populations have experienced because of these untold horrors.
    For example, USAID is providing targeted psychosocial 
assistance and distributing relief supplies to Yezidi and 
Christian IDPs as well as others. In conjunction with the 
Government of Iraq, which of course has the primary 
responsibility, we are addressing the needs of children and 
their families throughout such things as mobile, child-friendly 
spaces, and which can serve as platforms for meeting 
psychosocial needs of children wherever they are located in the 
area.
    USAID's response to this humanitarian crisis also builds on 
a solid foundation of 10 years of programs that have helped 
build Iraq's health, governance, and civil society capacity. So 
in recent weeks we have adjusted those existing programs to 
make sure that they are focusing on the immediate needs of the 
IDPs, and then also while continuing to work toward the longer 
term goals.
    So, in conclusion, in the coming months the international 
community will continue to face challenges. It is not going to 
be over soon. Humanitarian access will remain a critical 
problem. Displaced persons will likely be unable or unwilling 
to return home to their towns and villages. Displaced persons 
will likely also have long-term needs that will need to be 
addressed.
    As we work in support of the Government of Iraq and 
alongside our international partners to address these 
challenges, we will continue to focus on the vulnerable 
populations. USAID will also remain engaged with faith-based 
leaders, both here and in Iraq, to hear and address their 
concerns.
    Our hearts are with the thousands of people who remain 
besieged and are gravely concerned for their health and safety, 
and personally I feel that having been a son of Iraq in a 
certain way. And so we are really appreciative of this hearing, 
of the ongoing support that Congress has provided to us so that 
we are able to in turn provide humanitarian assistance to the 
people of Iraq.
    Thank you for your interest, thank you for calling this 
hearing, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Staal follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Mr. Staal, thank you very much for your 
testimony, for your leadership, and thank you to Dr. Shah, the 
head of USAID. I think that USAID is trying to respond as 
effectively as possible, and so, again, I want to give you high 
marks, and I know I am joined by members of the committee. It 
is difficult to get humanitarian aid on the ground in a war 
situation when even the aid workers are put at high risk. So I 
appreciate your commitment.
    Let me begin with some questions. First of all, let me ask 
Tom Malinowski. Tom Farr, who we all know is one of the 
preeminent, and he is the quintessential leader I think when it 
comes to religious freedom. I have read his book. As you know, 
I chaired all of the hearings that led to the enactment of the 
International Religious Freedom Act, Frank Wolf's landmark 
legislation on religious freedom.
    At the time, you will recall the administration, the 
Clinton administration, was opposed to it. John Shattuck, the 
Assistant Secretary in your position previously, sat right 
where you sit and testified against it on frequent occasions. 
When the bill was finally passed, House and Senate, with huge 
bipartisan majorities, the President signed it.
    But I have always been concerned that a bias against that 
mission has pervaded and persisted in many in the State 
Department, particularly at the higher levels, so much so--and 
Tom Farr makes this point in his testimony, and I quote him in 
pertinent part, ``While no administration has been successful 
in promoting religious freedom, the issue has been an 
especially low priority under the current President,'' and 
points out that the Ambassador-at-Large position was vacant for 
half of the Obama administration's tenure in office, which is a 
revelation of priorities in my opinion.
    And we have had hearings on it in this committee. We have 
asked, we have begged, we have admonished, we have used every 
word we could possibly think of, I and members of the 
committee, to encourage the President to take that step and 
make that an important office, but also--and I know, you know, 
there is a man--we know the rabbi very well that is slated for 
that position. He will do a fine job. But it has been a very 
checkered past, recent past.
    I mention that because Tom Far again makes a very, very 
important series of recommendations as well as observations. He 
points out that ``The threat to Christians and other minorities 
in this region was not ultimately caused by U.S. military 
action of the struggle for democracy. The root cause is Islamic 
terrorism of the kind that hit us on 9/11. That phenomenon 
finds its origins in a radical, and spreading, interpretation 
of Islam-nourished and subsidized by secular and religious 
Middle Eastern tyrants.''
    It seems to me that any strategy has to incorporate trying 
to get after the laws, the policies that make religious 
pluralism and tolerance non-existent in many of these countries 
with whom we are strong allies.
    So my question would be, how do you respond to that 
criticism, that religious freedom has not had the dominance, 
the rightful place would be the better way of putting it, 
within the administration? And, secondly, was the 
administration late in recognizing the ISIS threat as well as 
the Syria threat? Last year, right around now, the 
distinguished gentlelady from Florida, Ileana Ros-Lehtinen and 
I, chaired a hearing on Syria. The government witnesses 
wouldn't call it a genocide. Every one of the private sector, 
religiously-based, witnesses said it is indeed a genocide, what 
is happening in Syria.
    And my question to you will be, is what is happening to the 
Christians in Iraq and Syria today a genocide? Mr. Secretary?
    Mr. Malinowski. Thank you. That is quite a few. I will try 
to tackle all of them. First, on the importance of religious 
freedom, I hear you, we hear you. The central point of my 
testimony is that this begins before we had beheadings and 
Mosul taken and cities falling and hundreds of thousands of 
refugees. This begins with policies that exploit religious 
difference for political ends. That is what we had in Iraq. 
That is what we had in Syria.
    And the foundational principle of our efforts on religious 
freedom is not just that these kinds of abuses are bad things. 
It is not just that they offend our conscience. It is that when 
cynical political actors exploit religion, when they go after 
people because of these incredibly deeply rooted feelings that 
people of faith have, it is one of the most dangerous things 
that can happen in the world. The conflicts that begin that way 
are very, very difficult to end, and so that is why it is a 
priority, should be a priority, will continue to be a priority.
    In this crisis, the most important part of the Bureau of 
Democracy, Human Rights, and Labor has been our religious 
freedom office. They have been on the front lines. They have 
been bringing the stories of the victims of ISIL to everybody 
in the administration, all the way up to the President--and I 
think you will hear some of that reflected tonight in his 
speech--to the planners at CENTCOM who are organizing this 
operation.
    You mentioned Rabbi David Saperstein. He is the President's 
nominee. He is one of the most distinguished leaders on human 
rights and religious freedom in this country. He has his 
hearing in the Senate tomorrow. We hope he will be confirmed 
very, very quickly, and I think the importance of his job in 
the estimation of all of us, the urgency of that effort, has 
only gone up in the last few weeks.
    Were we late? Were we early? We will have these debates for 
a very long time. I think both of you mentioned, you and Ms. 
Ros-Lehtinen, you raised the question of why did we act when we 
acted as against before or after? I can tell you there are 
absolutely no distinctions here, nor should there be, nor will 
there be, between Christians, Yezidis, Shiites, Sunni, or what 
have you.
    We didn't act when we acted on Mount Sinjar because those 
were Yezidis on that mountain as against another group of 
people. We acted because there were people who were in a 
uniquely perilous situation, thousands of them surrounded with 
no way out.
    The same thing happened in Amerli with a different 
religious minority. We acted because we had the intelligence, 
and we acted--and this is particularly important in light of 
both of your questions--because we had capable partners on the 
ground who at that point were ready to act with us.
    There is not much that you can do from the air in a 
situation where you are trying to rescue men, women, and 
children if you don't have capable partners on the ground who 
are ready and willing to act with you. And at that point, we 
did. Several months ago, sadly, we didn't, which is why a huge 
part of this effort, in Iraq in particular, has been trying to 
get a more inclusive, more capable, more committed government, 
which we now have. And that is the basis of the strategy that 
the President will announce tonight.
    As for your question on genocide, I have been around that 
so many times, from the early days of the Bosnia crisis to 
Kosovo to Darfur, and all I can tell you is that I have never 
experienced a situation of mass killing, of mass atrocities, in 
which the lawyers were ready with a legal determination of 
genocide, and that is what it takes for the State Department to 
be able to make that formal determination in time for us to be 
able to decide on a course of action.
    The decision to act inevitably, invariably, comes before 
the experts, the international law experts, come together 
around a definition. And we have decided to act, and that is 
the important thing. We are doing right now exactly what we 
would be doing if the Secretary of State had already determined 
that genocide, as a legal matter, had taken place.
    Those kinds of determinations do become important when you 
get to the legal process, where you get to accountability, 
where you get to justice, and you prosecute people for what 
they did. But it----
    Mr. Smith. On that point, if I could ask you----
    Mr. Malinowski. Sure.
    Mr. Smith [continuing]. Because I am almost out of time, do 
you support--does the administration support a regional court? 
You know, the ICC has already been rejected. It has only one 
conviction, as you know, over the course of a dozen years, 
several indictees, but one conviction.
    And as David Crane testified recently here in this room, he 
was the chief prosecutor at the Sierra Leone court, the ICC is 
not the means to hold these people to account. A regional 
court, a hybrid, something like Sierra Leone, might be the best 
way to go.
    Mr. Malinowski. I think it is worth----
    Mr. Smith. Where is the administration----
    Mr. Malinowski. It is worth exploring. What I can tell you 
is that we are committed to ensuring that these people are 
brought to justice. All those in this conflict who commit war 
crimes, crimes against humanity, if they are captured, can, 
should, and will be brought to justice.
    A regional tribunal would also require the assent of the 
Security Council, so you still have the same problem as----
    Mr. Smith. In Russia, you will recall, with Yugoslavia, 
even though they were close allies with Milosevic, agreed 
because all sides would be prosecuted.
    Mr. Malinowski. Absolutely. But we would need that----
    Mr. Smith. It needs to be initiated in order for it to 
happen.
    Mr. Malinowski. But the principle of it, I think there are 
a variety of mechanisms through which you could get to that 
point, both national, international, and hybrid, and we support 
the concept. We need to find the most practical way to do it.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Thank you, Mr. Chair. I just wanted to ask you a 
few questions, especially concerning the children. And I know 
that the World Health Organization and UNICEF did a 5-day polio 
vaccination campaign that reached millions of Iraqi children. 
So I wanted to know if you could discuss the ongoing 
international efforts to support this campaign and prevent the 
spread of polio and other dangerous diseases. Anybody?
    Mr. Staal. Ranking Member Bass, thank you very much. That 
is a critical issue that we are looking at as a part of our 
health support to the country. And they have indeed done a 
major campaign to vaccinate children against polio, including 
now reaching out to the IDPs. So that is going to be something 
that we are making sure that it reaches the IDPs as well. And 
other diseases, whenever you get a group of displaced who often 
live in close quarters, we worry about a number of types of 
diseases, polio being one of them.
    Thank you.
    Ms. Bass. Anybody else? The people that were on the 
mountain--some were rescued and then some were able to leave or 
get to safety, do we know what happened to them? And then, 
also, did any of them come to the United States?
    Ms. Richard. Yes. Many got off, and many have gone to the 
Kurdish areas of northern Iraq where they are getting 
assistance now from UNHCR and other U.N. agencies. It is too 
soon to have brought any to the United States, but certainly 
they would be in a population that we would want to look at, 
whether they needed resettlement in the U.S. or not.
    But, you know, our long-term goal is that these minority 
groups be allowed to stay, to live, and to thrive in their own 
country.
    Ms. Bass. Right. I know that is the goal.
    Ms. Richard. Yes. But, certainly, for some people who--
here, as in other parts of the world, if they have been truly 
traumatized, and really feel that they cannot continue to live 
in their own country, or to go back home to their own country, 
we would work with UNHCR to see if they could be determined to 
be in the list to be resettled. And the U.S. takes most of the 
refugees who are resettled in the world every year.
    Ms. Bass. And finally just--as I believe votes have been 
called, and maybe another member wants to get in--do you have 
recommendations for more that you think we should be doing, 
what Congress should be doing right now?
    Ms. Richard. One of the wonderful things that the Congress 
does is to provide solid humanitarian assistance in both the 
budget that my office oversees and that USAID controls. And 
this is making a major difference in Iraq, in Syria, and all 
the crises around the world. So your support for that is 
fantastic.
    I think also what is helpful about today's hearing is all 
the people sitting behind us, bringing together concerned 
Americans and their friends from overseas to make sure that we 
have fresh information. I was very impressed by the Democracy, 
Human Rights, and Labor Bureau's reach into the American 
diasporas of groups overseas and how they were getting same-day 
information that fed into operations that were being carried 
out to rescue people.
    Ms. Bass. Thank you. Anyone else?
    Mr. Staal. Yes. Just to echo what Ms. Richard said. Your 
highlighting of this issue is a huge thing, as well as the 
support to us. We have seen a lot of international support. The 
Saudi Government providing $500 million, that was critical, the 
other support coming in. When I spoke to Archbishop Warda, he 
mentioned that 60 families there in Erbil of displaced 
Christians were getting support from Christians in America, 
private donations. That is critical, too, of course.
    And then the other thing is we need to maintain the 
pressure, if you will, on the Iraqi Government who have the 
primary responsibility to provide support. They have pledged 
almost $900 million from the Iraqi budget to support IDPs. They 
have a program there through their Ministry of Displacement and 
Migration that provides about $860 to each IDP.
    That is starting to roll out, but it is something that we 
are following to make sure that it really does get to all of 
them equally, fairly, appropriately, and that is an important 
issue to also maintain the focus on.
    Thank you.
    Ms. Bass. Thank you. I yield.
    Mr. Smith. Chairman Ros-Lehtinen?
    Ms. Ros-Lehtinen. Thank you so much, Mr. Smith.
    Before I begin to ask my questions, I would like to state 
for the record that Ranking Member Ted Deutch is at another 
committee hearing, and that is why he cannot be with us today. 
But I know that he is deeply troubled by the human rights 
violations occurring against persecuted Christians in the 
region.
    Thank you for allowing me to say that.
    Thank you, Mr. Chairman, and Ranking Member Bass, for this 
hearing.
    Assistant Secretary Richard, you had testified in front of 
the Middle East and North Africa Subcommittee last September on 
the humanitarian crisis. Unfortunately, not only has the 
situation gotten worse, but Iraq is now facing real crisis as 
ISIL has become stronger, more sophisticated. The Christian 
communities in Iraq and Syria are important ones in the history 
and fabric of the Middle East, and they are without a doubt 
being targeted for extinction.
    We must do everything possible to ensure that these 
communities are protected and allowed to remain, because it 
would indeed be a tragedy to lose such ancient communities at 
the hands of radical Islamist terrorist groups.
    And I have seen throughout your testimonies that we are 
doing a lot in the way of humanitarian assistance, and I thank 
you, much needed assistance. We need to continue to do so, but 
I keep saying at these hearings, we continue to provide this 
assistance without addressing the underlying issues. And right 
now the major obstacle is that there is this pervasive attitude 
throughout much of the region that views Christianity and other 
religious minorities through pure hatred.
    What are we doing to address this? What can we do? What 
plans can we implement, programs in the region, or in the 
refugee camps and in neighboring countries, that promote 
moderation or religious tolerance? What can those countries do, 
similar to what the Kingdom of Morocco has been able to 
implement? So that is the first question.
    We have heard from the panel the steps the administration 
is doing in conjunction with the U.N. Commissioner for Refugees 
and our overall humanitarian assistance inside Iraq. But these 
programs encompass everyone impacted by ISIL's march, including 
in Erbil. Are there any specific programs designed toward 
aiding the Christian community? How much are we spending 
directly in aid to help them?
    From what I have seen, also religious freedom and human 
rights seem to be ranked very low on the priority scale for 
this administration. It took the administration 10 months to 
name an Ambassador-at-Large for International Religious 
Freedom, and the State Department repeatedly ignores 
recommendations by the United States Commission on 
International Religious Freedom to add gross violators to our 
list of Countries of Particular Concern.
    It finally recertified countries this year after failing to 
do so for many years, and added a new country for the first 
time since 2006, but failed to add countries that the 
Commission had been recommending for years now, including both 
Syria and Iraq. We continue to provide aid and sell arms to 
some of the world's most egregious violators. We have waived 
sanctions on some of these Countries of Particular Concern.
    So, in closing, my last questions are, where does freedom 
of religion and the protection of rights fall on the 
administration's foreign policy priorities? And why has the 
administration ignored repeated recommendations by the 
Commission to add Syria, Iraq, and several other countries to 
the Countries of Particular Concern list despite more than 
ample evidence that religious minorities have been in danger?
    Thank you so much for the time, Mr. Chairman.
    Ms. Richard. Thank you, Madam Chair. Thank you for your 
interest all year long, and thank you for acknowledging that we 
are indeed doing a lot for humanitarian assistance. The U.S. 
Government really leads, and we are fortunate to have 
congressional support for this and really largely American 
public support to do a lot on the humanitarian front around the 
world.
    You have said we need to address the underlying issues. I 
agree with you and so does my boss, Secretary Kerry, who is 
today in Baghdad and is obviously spending a great deal of time 
and attention on the Iraq situation right now, and really the 
situation in the wider Middle East. And he leads us in doing 
that.
    You mentioned what we could do to promote moderation, 
religious tolerance. In that respect, you are on the same 
wavelength as our new Under Secretary, Sarah Sewell, who has 
instructed a number of our bureaus, including both Democracy, 
Human Rights, and Labor, and mine, the Population, Refugees, 
and Migration Bureau, to look at ways that we can counter the 
spread of violent extremism. And so this is very much front and 
center on our to do list at the moment, building on programs 
that already exist that Tom will be able to speak to.
    And, third, I don't agree that somehow religious freedom is 
being ignored in the Department, and partly because Secretary 
Kerry has created a faith-based office headed by Sean Casey. He 
did this nearly as soon as he came in, and we see that Sean 
Casey is working very closely with our special envoys in 
outreach to the Muslim world to fight anti-Semitism. And we are 
all anxious to get Rabbi David Saperstein on board as well as 
part of the team, but Tom is more the expert on that.
    Mr. Malinowski. As far as what we do to promote this cause, 
and I would say very strong self-interest in religious 
tolerance around the world, and particularly in this region, I 
would say we work bottom up and top down. Bottom up, we do fund 
a lot of small programs, and these are by definition small 
programs, working with civil society organizations, with 
religious organizations, on the ground in these countries.
    In Iraq, for example, we helped fund an organization called 
the Alliance of Iraqi Minorities, which was working before this 
crisis to try to build bridges between religious communities in 
these areas that we have been discussing. We have funded 
Christian activists who have worked to try to build connections 
between their communities and local and regional governments in 
Iraq.
    We funded similar programs in Syria in the midst of the 
civil war, and we have insisted that the Syrian opposition 
groups that we support in that horrible situation be as 
inclusive as possible and respectful as possible of minority 
groups. And then we work top down, and that is what Secretary 
Kerry is doing in Baghdad today, where in addition to the very 
general top line message on the importance of governing 
inclusively with respect for all of Iraq's people, we have been 
discussing very, very discrete, specific questions like how to 
organize a more integrated, less sectarian security force for 
Iraq in the future, discussing the establishment of National 
Guard forces, so that local communities can feel that they can 
protect themselves with the support of the Government of Iraq, 
but also with a degree of autonomy. So bottom up and top down.
    In terms of the CPC designations, as you mentioned, we just 
added Turkmenistan. We add countries when we feel that there 
are egregious violations of religious freedom going on, they 
are committed by governments, and those governments are being 
wholly unresponsive to diplomacy.
    So it is not simply a question of, are there terrible 
things happening in a country, but whether we feel that 
diplomacy is being exhausted, and this tool needs to be used.
    Syria of course is under every sanction that we ever have 
thought of already. Iraq has a new, more inclusive, less 
sectarian government that has made the commitments that we want 
to----
    Ms. Ros-Lehtinen. Thank you. I know that I am way out of 
time.
    Mr. Smith. Real quick--if the gentlelady would yield very 
quickly.
    Ms. Ros-Lehtinen. Please.
    Mr. Malinowski. So we will have to see how that 
government----
    Mr. Smith. Our concern has been--that is why I think Mr. 
Farr's statement about low priority--it is not that you haven't 
done anything, and I would respectfully submit that under 
Secretary Kerry it has been increased, and it was at a much 
lower level under Secretary Clinton.
    And we had a hearing, and we heard from Robbie George, who 
was then the chairman of the U.S. Commission on International 
Religious Freedom, and he pointed out in the strongest possible 
terms, it was since 2011 and at that point that no CPC 
designations have been made, and that looked like asleep of the 
switch if ever there was one.
    I mean, again, having been one of the architects of the 
Wolf Act, there was no doubt that that was meant to be done 
every year. It was to be robust, and then the sanctions part 
was meant to really have teeth. And Saudi Arabia gets on the 
list every year, and what do they get? Not even a slap on the 
wrist.
    And we know that much of the funding of Wahhabis and 
others, I mean, I travel frequently to Africa, and just as in 
the Middle East--I was just there in June, and before that in 
Nigeria, 10 months ago in Jos, a few months ago in Abuja--they 
are being funded, and we are not doing enough, I don't think, 
to mitigate that funding.
    And as Mr. Farr points out, the root cause is this radical 
Islamist view. And he makes a good point, and I am sure you 
share it, that moderate Muslims are many, but they are being 
crowded out and they are being victimized as well by these 
other more virulent extremists who see first Christians, and 
then if they are not winning accomplices with the extremists, 
then they target the more moderate Muslims.
    Mr. Vargas.
    Mr. Vargas. Thank you very much, Mr. Chair. And, again I 
want to thank you very much for this meeting. I think one way 
to show I think a strong commitment here to religious freedom 
is to help the Chaldeans right now that are trying to escape 
the terror there. There are many, many Chaldeans in Michigan 
and also in San Diego that are prepared, ready, to take their 
family members. They want to reunite. And I think the 
administration has an opportunity here, really, to show the 
commitment to religious freedom, and I hope they do that.
    In San Diego, I can tell you the community there is 
begging--is literally begging for the administration to take 
action to allow their brothers, their sisters, their mothers, 
to come to this country. We have always been a country of 
refuge for these people, people that are suffering under 
religious persecution. And now we see these horrific acts that 
are being committed against children. Not even parents now, not 
even adults, they are committing horrific acts against 
children.
    The United States should act, and we should do something 
immediately to help these people. I would ask you, I know you 
have the authority to do it. You know, allow these people to 
come to our country, reunite with their families. Why aren't we 
doing that?
    Ms. Richard. Congressman, I want to assure you we are 
bringing refugees to the United States. We brought 70,000 last 
year. Since 2007, we have brought 110,000 Iraqi refugees to the 
United States. Nearly half are Iraqi Christians. And so we have 
every intention, with your help, and the----
    Mr. Vargas. I will do anything I----
    Ms. Richard. I am thrilled to hear you say such supportive 
things----
    Mr. Vargas. Absolutely.
    Ms. Richard [continuing]. And your help continue to bring 
refugees to the United States. But we all know what we really 
should be doing is putting ourselves out of business. We should 
be living in a world where people don't have to flee in the 
first place, and so we need to do both. We need to----
    Mr. Vargas. Absolutely.
    Ms. Richard [continuing]. Continue to leave an open door 
for people who will never be able to go home, and we also need 
to work overseas at the same time to create the conditions so 
that they can live peacefully in stable countries. And so I 
really welcome your remarks in support of the U.S. Refugee 
Admissions Program.
    Mr. Vargas. Absolutely. And in fact I have a bill 
specifically on that. But I would say this, that, you know, 
there are people right now who are in dire threat of dying, if 
we don't act. At the same time they have their family members 
here in San Diego and Michigan and other parts begging, they 
will do anything possible to help them. And I think we should 
act.
    I know that they are organizing in San Diego. I have been 
involved in that effort, and I will do anything I can--my 
office will do anything we can to help out in this. And I know 
that it would be great to have the situation where everybody 
gets along, but they are talking about being put out of 
business.
    Radical Islam is putting these Christians out of business 
by killing them. We ought to save them. And that is why I thank 
you for what you have done, but we need to do a lot more.
    Ms. Richard. The program--the Refugee Admissions Program 
takes refugees for whom there is no possibility of going home 
and brings them to the United States. But it is run in a very 
careful, deliberate manner to make sure that the people who 
come here pose no threat to other Americans. And so it is not a 
rapid response program.
    Unfortunately, the days of flying planeloads of people 
quickly to Fort Dix in New Jersey, as was done during the 
1990s, is over, and that ended on September 11, 2001. But what 
we need to do is get people to safety, and we need to provide 
safe places for them and get them the aid that they need, so 
that they are not in jeopardy after they have fled.
    Mr. Vargas. If I can just interrupt for a second, and I 
apologize, but I guess I would go back to what I think the 
chairman said quite well. I think this is the issue of 
religious liberty. We are not talking about people who are 
radical Muslims here. We are talking about Christians. These 
are Chaldean Christians. You have to make the separation here.
    How can you say that these Chaldean Christians are radicals 
that we have to watch out because of September 11? I mean, 
there is no evidence--there is no evidence whatsoever to say 
that these Chaldean Christians have committed any kind of 
terrorist act against the United States. And, I mean, I 
wouldn't even accuse anybody else, but you certainly have no 
evidence against these Chaldeans.
    Ms. Richard. I certainly did not mean to suggest that 
Chaldean Christians are prone to terrorism. Most refugees in 
fact are not----
    Mr. Vargas. That is correct.
    Ms. Richard [continuing]. Prone to terrorism.
    Mr. Vargas. That is exactly right.
    Ms. Richard. Most refugees are just trying to survive and 
have their families survive. I traveled with----
    Mr. Vargas. That is exactly right.
    Ms. Richard [continuing]. Congressman Sander Levin to meet 
with Chaldean Christian communities in the Dearborn area. I 
have also met with refugees in San Diego, but it was mostly 
Somalis. I think the San Diego community is fantastic in 
offering a new home. If I were a refugee, I would want to go to 
San Diego.
    But I also realize that we take in less than 1 percent of 
the world's displaced here in the United States. So we have to 
get a way to get people to safety overseas in addition to 
resettling refugees to the United States.
    Mr. Vargas. Thank you, Mr. Chairman. I know my time is 
over. I just hope you take specific care of the Chaldean 
Christians. They are in special need at this moment.
    Thank you.
    Mr. Smith. Mr. Vargas, thank you very much.
    We have four votes on the floor. Mr. Vargas and I may have 
just missed the first one. So we will stand in recess. And I 
apologize, and I thank our panel. We will go to Panel II. I am 
not sure who would come back. So I thank you very much for your 
distinguished service and look forward to working with you.
    [Recess.]
    Mr. Smith. The subcommittee will resume its hearing. And, 
again, I apologize to our witnesses for the delay. We did have 
four votes and a speech in between, which made it very 
difficult to get back here quickly. So I do apologize. Members 
have indicated that they will come back.
    We have been joined by Chairman Frank Wolf, and I would 
like to yield to him to just say a word or two. Chairman Wolf, 
I think as most of you know, is the architect, the prime 
author, of the International Religious Freedom Act. He also is 
the author of the legislation to establish a Special Envoy for 
Religious Minorities in the Near East and South Central Asia. 
He is incomparable.
    He has been tenacious throughout his entire 34 years as a 
member of the U.S. House of Representatives on the issues of 
human rights in general and religious freedom in particular.
    Chairman Wolf.
    Mr. Wolf. Thank you, Mr. Smith. I just wanted to welcome 
Mr. Farr and Mr. Galbraith and the others. I have a 4:30 
meeting which I am going to go to. I am going to stay until 
that time. Thank you for holding the hearing.
    Thank you very much. I yield back.
    Mr. Smith. Thank you very much, Chairman Wolf.
    Let me begin by inviting Ambassador Peter Galbraith, who 
has served as an advisor to the Kurdistan Regional Government 
and is currently the senior diplomatic fellow at the Center for 
Arms Control and Nonproliferation where his work focuses on 
Iraq, the greater Middle East, and conflict resolution and 
post-conflict reconstruction.
    From 1979 to 1993, he was a senior advisor on the Middle 
East, South Asia, and International Organizations to the Senate 
Foreign Relations Committee. From 1993 to 1998, he served as 
U.S. Ambassador to Croatia and helped mediate the agreement the 
ended the war in Croatia.
    We will then hear from Mr. Tom Farr, who is visiting 
associate professor of religion and international affairs at 
Georgetown's School of Foreign Service. He directs the 
Religious Freedom Project and a program on religion and U.S. 
foreign policy at Georgetown's Berkley Center for Religion, 
Peace, and World Affairs, and where he is a senior fellow.
    Dr. Farr has served in both the U.S. Army and the American 
Foreign Service and he became the first Director of the State 
Department's Office of International Religious Freedom where he 
led American diplomatic efforts to promote religious liberty, 
and is also an author and I have read his book. It is an 
extraordinarily well-written book, and I thank him for his 
service.
    And, finally, we will hear from Ms. Pascale Esho Warda, who 
is currently serving as the president of the Hammurabi Human 
Rights Organization and was Minister of Immigration and 
Refugees in the Iraqi Interim Government. She was one of only 
six women in the 32-member Interim Iraqi Council of Ministers 
which operated following the transfer of power from the 
Coalition Provisional Authority to the Interim Iraqi Government 
in 2004.
    Chaldean Catholic and ethnic Assyrian, she was born in 
northern Iraq, but was later exiled to France. She studied 
there and was the representative of the Assyrian Democratic 
Movement, the primary Assyrian political party in Iraq.
    Unfortunately, Bishop Ibrahim Ibrahim of the Chaldean 
Church, the Bishop Emeritus of the Chaldean Eparchy of St. 
Thomas the Apostle Catholic Church here in the United States 
has taken ill, but we are hoping that one of his top advisors 
will take the time to at least convey to us his testimony. So I 
would ask him to join us as well.
    And, again, send our best to the Bishop. We certainly hope 
he has a speedy recovery. He was here for the first three 
testimonies, but then fell ill.
    Ambassador Galbraith, if you could begin.

 STATEMENT OF THE HONORABLE PETER GALBRAITH (FORMER ADVISOR TO 
               THE KURDISTAN REGIONAL GOVERNMENT)

    Ambassador Galbraith. Mr. Chairman, let me express my 
appreciation to you and the committee for holding this 
important hearing and for the invitation to testify.
    Kurdistan is key to any strategy to protect the Christians 
and other minorities in northern Iraq, because it is the place 
of refuge and also the home to very significant Yezidi and 
Christian populations. It is also, I dare say, unique in the 
Middle East for its commitment to tolerance and diversity.
    As I outline in my written testimony, Kurdistan region has 
had a policy since it was created in 1992, of using public 
funds to rebuild churches and to try to encourage the Christian 
community who are also victims of Saddam's depopulation efforts 
to return home. And in contrast to many other parts of the 
Middle East, public funds, for example, are not used to rebuild 
mosques, although it is also a safe area for Shiites and Sunnis 
who have been fleeing ISIS.
    I am not going to try to add to the excellent testimony you 
have already received, because my time is short, and because in 
some way it is superfluous. In my previous experience dealing 
with war crimes, and that has been a good part of my career one 
way or another, you have had to rely on investigations, 
forensic work, reporting, to uncover the crimes because the 
perpetrators covered them up.
    But in this case, ISIS actually advertises its crimes with 
slickly produced videos and other material. So collecting the 
evidence is not so difficult. The real challenge is what to do 
about it, and I have five recommendations.
    The first is to recognize that ISIS is committing genocide 
against the Yezidis and the Christians. The genocide convention 
says, ``Genocide means any of the following acts committed with 
intent to destroy, in whole or part, a national, ethnic, 
racial, or religious group.'' The specified acts are killing 
members of the group, causing serious bodily or mental harm to 
members of the group, or deliberately inflicting on the group 
conditions of life calculated to bring about its physical 
destruction in whole or in part.
    ISIS is killing, causing bodily harm, and creating 
intolerable conditions of life. It is doing so with the 
announced intent of destroying these Christian and Yezidi, and 
I might add Shi'ite, communities. So it fits within the four 
corners of the genocide convention. And the important point 
about the genocide convention is that it is a convention to 
prevent, as well as punish, genocide.
    You don't want to wait until everybody has been killed to 
determine that genocide took place, because you can't prevent 
it once it has actually happened. This is not just semantics, 
it is very important to say that this is genocide.
    Second, the United States could do much more to assist the 
Kurdistan Regional Government to care for 1.25 million 
displaced Iraqis and Syrian refugees now finding safety in 
Kurdistan. Since June, more than 1 million Iraqis have taken 
refuge in Kurdistan. The Kurdistan region has a population of 5 
million. It is an equivalent as if 50 million people came into 
the United States this summer, and even from my home in Vermont 
I cannot help but notice the uproar in Congress over 50,000 
illegal immigrants in our big country. Imagine if we had 50 
million coming in. That is what they are up against.
    And since February the Maliki government, and he was 
supported by the man who is now Prime Minister, Haider al-
Abadi, has refused to pay the Kurdistan Government's 
constitutionally mandated share of Iraq's budget. And Kurdistan 
doesn't have the resources to take care of its own people, much 
less the million people who have just come in.
    And so that leads to my third recommendation, which is that 
the United States should prevail on Baghdad to end its vendetta 
against Kurdistan in the interest of jointly confronting the 
common enemy of ISIS. It means paying the KRG's budget arrears 
immediately, as well as extra amounts to take care of the other 
Iraqis who are there. It means ending self-destructive actions. 
Let me cite one.
    After ISIS took over Mosul, the Maliki government closed 
the space of Kurdistan to cargo flights because they were 
afraid that arms would be flown into Kurdistan. Well, of 
course, what would the arms have been used for? It would have 
been used to fight the common enemy, but sectarian politics 
trumped the national defense even at a time of grave peril. 
Now, I know that there are quarrels, but those quarrels can be 
set aside at least for the moment.
    Fourth, we need to ensure that Kurdistan has the necessary 
weaponry. For the peshmerga, it is the only military force in 
Iraq that is capable of fighting ISIS, because by and large the 
Iraqi Army has dissolved. Weapons are beginning to flow, but 
there is a need for more advanced weapons, including 
helicopters, MRAPs, things that will match what ISIS got, the 
American weapons that ISIS got from the Iraqi Government.
    And, finally, we need a broader strategy to combat ISIS. I 
look forward to hearing what the President has to say. And from 
what I have read, I think there is much to commend what appears 
to be in the offing.
    But I want to conclude with a word of warning. The notion 
that a strategy that relies on a more inclusive government, 
Iraqi Government, can work is a fallacy, because there is no 
inclusive Iraqi Government that can reach out to the Sunnis, 
certainly not one led by Dawa, al-Abadi's party, which seeks to 
define Iraq as a Shiite state. And, frankly, there is nothing 
that has happened from al-Abadi to even deal with the Kurdish 
question which ought to be the easier part. So if it all rests 
on the hope of a more inclusive government, then the strategy 
is not likely to succeed.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Galbraith follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Ambassador Galbraith, thank you very much for 
your testimony and your very solid recommendations.
    Mr. Farr.

 STATEMENT OF THOMAS FARR, PH.D., DIRECTOR, RELIGIOUS FREEDOM 
PROJECT, BERKLEY CENTER FOR RELIGION, PEACE, AND WORLD AFFAIRS, 
                     GEORGETOWN UNIVERSITY

    Mr. Farr. Mr. Chairman, thank you for inviting me to this 
hearing. And if I could be permitted a brief personal remark, 
it is an honor to be here in the presence of two lions of the 
Congress, Mr. Smith and Mr. Wolf. If I could just say to Mr. 
Wolf, we are going to miss you, sir. Thank you for your service 
to this country and to religious freedom.
    Tomorrow we mark the 13th anniversary of the Islamist 
terrorist attacks of September 11, 2001. What we are facing in 
Iraq and Syria today has deeply troubling similarities to 9/11, 
both in its origins and its threat to American national 
security.
    There is, of course, one major difference between then and 
now. While Christians in the Middle East were under mounting 
pressure in 2001, today their very existence is at risk. We are 
witnessing the disappearance of Christians and Christianity 
from Iraq, Syria, and elsewhere in the Middle East, a 
religious, cultural genocide with terrible humanitarian, moral, 
and strategic consequences for Christians, for the region, and 
for us all.
    Some blame the current threat to Christians on the 2003 
American invasion of Iraq and the chaotic movement toward 
democracy that it triggered. While there is some truth in that 
assessment, I believe it is at best a half truth. The threat to 
Christians and other minorities in this region was not 
ultimately caused by U.S. military action or the struggle for 
democracy. The root cause is Islamist terrorism of the kind 
that hit us on 9/11. That phenomenon finds its origins in a 
radical and spreading interpretation of Islam, nourished and 
subsidized by both secular and religious tyrants in the Middle 
East.
    Since 2001, Islamist terrorist movements have emerged 
throughout the world, and notwithstanding administration 
insistence that al-Qaeda and others of its ilk were on the run 
and a spent force, these movements today are present in Africa, 
Asia, Europe, and the Americas. While they have doubtless taken 
advantage of the chaos, attendant on transitions to democracy 
in places like Iraq and Egypt, democracy did not incubate these 
barbarians.
    Instead, these groups, from ISIS to the extremist 
ayatollahs in Iran, are motivated by a common belief that God 
is calling them to brutality and violence against the enemies 
of Islam, and to control territory in order to carry out this 
divinely ordained mission.
    Over the long term, while the use of military force will 
doubtless be necessary, stable self-government grounded in 
religious tolerance and ultimately religious freedom is the 
only reliable antidote to the toxic religious convictions of 
Islamist terrorists.
    Let me quote from the 9/11 Commission Report, and I quote,

        ``Islamist terrorist leaders draw on a long tradition 
        of extreme intolerance within one stream of Islam. That 
        stream is motivated by religion. Islamist terrorists 
        mean exactly what they say. To them, America is the 
        font of all evil, the head of the snake, and it must be 
        converted or destroyed.''

    Mr. Chairman, we must destroy ISIS militarily, if we can, 
but we cannot destroy with force of arms the religious ideology 
that sustains it and other Islamist terrorist groups. 
Notwithstanding economic grievances or hatred of the United 
States or sociopathic tendencies that may motivate them, all of 
these groups have in common an interpretation of Islam that 
comes down to this: Islam must be defended with violence.
    Now, the vast majority of Muslims--Sunni, Shiite, or Sufi--
let alone the Islamic minorities like the Ahmadiyya or the 
Baha'i, do not support violence or cruelty. But it is also the 
case that most Muslim majority countries are supportive of 
legal and social structures such as anti-blasphemy, defamation, 
and anti-apostasy laws and practices that encourage extremism 
and discourage the liberalizing voices of Islam.
    It is here that U.S. religious freedom policy can make a 
contribution. Until the extremist understanding of Islam is 
utterly discredited in the Islamic world, or at least moved to 
the margins of intellectual, theological, and political life, 
Islamist terrorism will continue to grow and flourish. A regime 
of religious freedom would help in this task by ensuring open 
debate about Islam and other religions without fear of criminal 
charge or mob violence.
    History, modern research, and common sense tell us that 
religious freedom undermines radicalism. On the other hand, 
repression of the kind that has been endemic in the Middle East 
encourages it.
    The United States has had, for 16 years, a statutory 
requirement to promote religious freedom in its foreign policy. 
It has failed to accomplish that task.
    Our ineffectiveness is evident in the findings of the Pew 
Research Center that 76 percent of the world's population lives 
in countries where religious freedom, in effect, does not 
exist. Millions of people are subject to violent persecution 
because of their religious beliefs or those of their 
tormentors.
    While the United States is not responsible for these 
numbers, it is or ought to be a source of deep concern that we 
have done so little to effect them. While no administration has 
been successful in promoting religious freedom, the issue has 
been an especially low priority under this President.
    For example, the position of Ambassador-at-Large for 
International Religious Freedom, which was the position 
established by the IRF Act to lead this policy, has been vacant 
for over half this President's tenure. And even when it was 
filled, the incumbent had virtually no resources or authority. 
There was then, and there is now, no American strategy to 
advance religious freedom in our foreign policy.
    Given the stakes in the Middle East and elsewhere for 
American national security, this lassitude, this inertia, is 
stunning. I, like you, Mr. Chairman, am hopeful there will be 
positive changes under Rabbi David Saperstein, the man 
nominated to be the next Ambassador. And I urge the Senate to 
confirm him quickly.
    Mr. Chairman, my prepared remarks end with a recommendation 
that the administration develop a national security strategy 
that includes religious freedom. In addition, I recommend five 
steps that this committee might take to amend the IRFA and 
improve U.S. IRF policy. I will just briefly hit on them.
    First, require the State Department to have the Ambassador-
at-Large for Religious Freedom report directly to the Secretary 
of State, as do other Ambassadors-at-Large, such as the 
Ambassador-at-Large for Global Women's Issues. This will 
increase the status and authority of the IRF Ambassador and 
help overcome the real perception among American diplomats and 
foreign governments alike that this issue is not a priority.
    Second, give the Ambassador the resources he needs to 
develop strategies and to implement them in key countries 
around the world.
    Third, make training of American diplomats mandatory in 
three key stages, which I lay out. Presently, it is voluntary, 
this training, and not terribly effective.
    Fourth, amend the IRFA to require that the list of severe 
violators, the Countries of Particular Concern, be issued 
annually with the report. Require the State Department to 
provide an analysis of other policy tools being applied in each 
Country of Particular Concern, including programs that target 
democratic stability, economic growth, and counterterrorism.
    And, finally, require the State Department to respond in 
writing to recommendations by the U.S. Commission on 
International Religious Freedom, which the chairman correctly 
notes are routinely ignored by the State Department.
    Now, such changes will not work miracles. They will not 
work overnight. But without steps like this, and without the 
commitment of the President, the Secretary of State, the 
Congress, and the Ambassador-at-Large, the remaining Christians 
and other minorities of the Middle East will face violent 
persecution into the indefinite future. And the United States 
will face a permanent threat from the ever-spreading phenomenon 
of violent religious Islamist extremism.
    For all of these reasons, I urge this committee to take 
action. Thank you.
    [The prepared statement of Mr. Farr follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much for your testimony and very 
useful recommendations which we will look to promote. So thank 
you.
    I would like to now ask Ms. Warda if you would proceed.

  STATEMENT OF HER EXCELLENCY PASCALE ESHO WARDA, PRESIDENT, 
    HAMMURABI HUMAN RIGHTS ORGANIZATION (FORMER MINISTER OF 
       IMMIGRATION AND REFUGEES IN THE IRAQI GOVERNMENT)

    Ms. Warda. Thank you very much, Mr. Chairman. I am sorry 
Mr. Frank Wolf is out now, but I would like to really thank you 
both for your concern about Iraqi Christians. Since 2003 to 
now, we are just seeing your interventions always are for the 
best of the Christians.
    I would like to really represent today the voice of a civil 
society. I am chairman of the Hammurabi Human Rights 
organization and would like to say what is really going on on 
the ground.
    I was here 2 months ago, and I was just qualifying this 
situation as genocide. And people were saying, ``Please don't 
say genocide. It is not genocide.'' No, it is genocide. I thank 
you to say it is--all of you, you said it. It is a genocide.
    And I would like to say now I am coming and the situation 
is really contrary of what we were waiting that to--to be 
better, now the situation is worse, coming out from a situation 
of persecution and going to--up to the ongoing genocide now.
    The number of persons displaced by ISIS rose to more than 1 
million people. Most of those are Christian and Yezidis, 
Turkmen and Shiite as well, because Shabak are Shiites and 
Turkmen are Shiites.
    Minorities are threatened with death and executed. They are 
kidnapped and raped. They are robbed and pillaged, and so on. 
They are denied water and electricity services. Women are 
kidnapped and sold and forced to marry with ISIS members. Women 
are forced to wear veils. Men are forced to grow beards.
    Ladies and gentlemen, there is genocide unfolding in the 
north of Iraq now. There are 200,000 Assyrian Christians, 
150,000 Yezidis and other minorities displaced from their homes 
and living in refugee camps in Erbil, in Ankara, in Dohuk, in 
Suleimaniya, and so on.
    Worldwide, Assyrians have four major denominations: 
Chaldeans, Syriacs, Syriac Orthodox, Catholic, and so on, of, 
you know, sectarian names. Forty-five percent are Chaldean 
Catholic, 26 percent are Syriac Orthodox, 19 percent are 
Assyrian Church of the East, 4 percent are Syriac Catholic.
    The refugees are living in streets, open fields, schools, 
church halls, courtyards; abandoned, condemned, and unfinished 
buildings; and in large tent camps. Winter is coming, and 
winter in this area is so cold. Those children will really not 
survive if the situation is in the state of today. The 
displaced children will miss their school, and even the local 
children will miss their school because the displaced people 
are occupying the schools.
    What we would like to really suggest, we suggest long-term 
and short-term solutions. The short-term solution is providing 
humanitarian aid to the refugees. Aid is inadequate actually 
now. There is a lack of shelters, lack of food and water, lack 
of medicine and clothing.
    A second point, and I think is the first is clear ISIS from 
Mosul. If Mosul is not freed, we have no insurance to stay any 
more near to Mosul, so--and the Nineveh Plain so that displaced 
residents may return to their homes ahead for winter. They will 
not return if ISIS is still in Mosul.
    Designate the Nineveh Plain as a safe haven and provide an 
international force for protection to stabilize the region, 
regardless of whether Iraqi or Kurdish forces or Iraqi Army 
forces.
    The Nineveh Plain has been neglected by both the Kurdish 
and Baghdad regimes. This long-term safe haven would be similar 
to the one provided for the Kurdish in 1991. Financially 
compensate all displaced persons for their property and income 
losses, because everybody has lost house and everything in 
house and even their own clothes.
    Long-term solutions, establish an autonomous region for 
each--the Assyrian Christian and the Yezidis--to be 
administered by them. Create Assyrian Christian and Yezidi 
manned units with Iraqi police and military, and all kinds of 
security tools, in the different institutions of security 
tools. And station these in Assyrian and Yezidi areas, so that 
they will defend themselves and their villages.
    I was contacted from Sinjar Mountain by Sheikh Kamal, who 
is a Yezidi, who was really requesting and saying to me, 
``Please tell our brothers and our friends to send us the 
weapons, to us directly to defend ourselves from Sinjar 
Mountain.'' So there is a problem of confidence there.
    Gain international recognition for the genocide against 
Assyrian Christians, which has been ongoing since 1915. It is 
not of today. Since 1915, we are in ongoing genocide. Each 10 
years, each 5 years, we have genocide in different areas of 
Iraq.
    The solution for the Iraqi displaced by ISIS is not offer 
them passage out of the country, but to remove the threats to 
them, whether from ISIS or from their neighbors who collaborate 
with ISIS and stabilize the region, providing civil and 
economic security. This will insure that Christian Assyrians, 
Chaldean, Syriacs, and others will remain in their land where 
they have been since more than 6,700 years.
    The ideology which controls the Muslim jihadists is 
criminal Islamic ideology, which is based on two sources, the 
Koran as the obligatory word of Allah, and the Sunna--Hadith--
of the Prophet Mohammed. This is encapsulated in the Muslim 
Brotherhood in one sentence, ``Allah is our goal. The prophet 
is our ideal, the Koran is our constitution, the jihad is our 
way, and the death for the sake of Allah is our aspiration.''
    How we can get really a real insurance of the life here if 
we are not protected internationally? Please, international 
protection, this is the request of Patriarch Sako, is the 
request of all Christians and Yezidi on the ground.
    This phrase was repeated in the streets of Paris while 
French Muslims were demonstrating, most of them Arab origins. 
The Muslim Brotherhood is the base cell from which stems all of 
these current Islamic terrorist movements, regardless to their 
denominations.
    ISIS is not just a danger to Iraq and Syria only. It is a 
danger to all democratic countries. Therefore, democratic 
countries must hold accountable all countries and entities that 
support ISIS and similar groups. I think the problem is not 
really local or original. It is international. That is why we 
need an international solution, we need international 
protection.
    Thank you very much.
    [The prepared statement of Ms. Warda follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you, Ms. Warda, very much for your 
testimony. And, finally, we will hear from Johnny Oram, who is 
with the Chaldean Chamber of Commerce in California. Again, 
Bishop Ibrahim was slated to testify, was here earlier, but 
fell ill. And so please send him our best, but please, if you 
could fill in for him.

  STATEMENT OF MR. JOHNNY ORAM, PRESIDENT, CHALDEAN AMERICAN 
               CHAMBER OF COMMERCE OF CALIFORNIA

    Mr. Oram. Thank you very much, Chairman, and I thank you, 
distinguished members and guests, for the opportunity. My name 
is Johnny Oram of the Chaldean American Chamber of Commerce of 
California. However, I am here on behalf of Bishop Ibrahim 
Ibrahim, who is the Bishop Emeritus of the Eparchy of St. 
Thomas the Apostle, which represents the largest Chaldean 
population in the world outside of the Middle East, right in 
the metro Detroit region, of about 150,000 strong. And this is 
a statement on behalf of the Bishop, and who actually is the 
representative of the Patriarch Sako, who is the leader of the 
Chaldean Church worldwide.
    I am writing to provide you an update on the ongoing crisis 
impacting Iraq's Christians and other minority communities. Our 
organization and others have been working diligently to assist 
the displaced communities. We are in daily contact with our 
religious and political leaders in northern Iraq. They are 
providing updates on the displaced communities which are 
primarily in Erbil and Dohuk.
    Currently, more than 500 families are living in streets and 
parks, and we have been working to find shelter for these 
families. The Detroit community has raised more than $800,000 
and sent much of the money to northern Iraq for immediate 
humanitarian aid, primarily to find shelter for those that are 
on the streets.
    The United Nations has stepped up their efforts and are 
providing food, water, and basic necessities, and our friends 
at the United States State Department have provided us with 
contacts on the ground in Iraq that our people can call on if 
they need immediate humanitarian aid.
    Senator Carl Levin visited Erbil on September 3 and had the 
opportunity to meet with Assyrian, Chaldean, and Yezidi 
religious leaders in which they provided a summary which is 
consistent to the recent statement issued by Patriarch Sako of 
what their immediate request and needs are.
    They are primarily, number one, the international community 
must immediately intervene to provide direct humanitarian aid 
to the displaced Christians and other minorities in the regions 
of Erbil and Dohuk.
    Number two, Christian and other minority villages in 
Nineveh Plains must immediately be liberated, and the community 
must have safe passage to return.
    Number three, the Christian and other minority villages in 
the Nineveh Plain must be protected by an international force 
under the supervision of the United Nations.
    During the conversation, they also stressed the importance 
of a coalition to defeat ISIS, and that they are a threat not 
only to minority communities but to all Iraqis and to the 
United States of America.
    Furthermore, they asked the Senator specifically if there 
is a future for minorities in Iraq and if the minorities, 
specifically Christians and Yezidis, are a part of the overall 
plan for Iraq because they are feeling hopelessness.
    They specifically requested immediate support. And if it is 
not going to come, as many meetings such as this have taken 
place with other dignitaries throughout the world, they may be 
allowed to leave with dignity, so that they are just waiting 
around and hoping for the best while they continue to be 
eroded.
    I have attached a photo I want you to review which was sent 
to me by Bishop Nicodemus Matti, the Syriac Orthodox Bishop of 
Mosul. He took this photo while in Erbil last week as one of 
the government processing centers open up for people requesting 
visas and passports. As you can see, most people would like to 
leave based on their current horrific conditions that they are 
living in.
    This week, you are probably aware of the In Defense of 
Christians Conference that is taking place in Washington. Many 
people throughout the world, including several of the Middle 
East patriarchs, are in town trying to raise awareness of the 
plight of the Christians in the Middle East, especially those 
in Iraq and Syria.
    Although they are a minority community, a Middle East 
without Christianity will be radicalized. As Christians leave 
the area, it will become much more turbulent. Although they are 
a minority, Christians are a disproportionate number to the 
population of educators, physicians, lawyers, engineers, and 
entrepreneurs.
    We are anxiously awaiting to hear what President Obama will 
say in his remarks tonight. We continue to appreciate all the 
efforts you are providing our community and the guidance and 
direction you are providing our leaders.
    There are a few pending bills that have been brought up 
recently to try to increase the number of visas to come to the 
United States specifically for the Christians of Iraq as well 
as other minority communities that have been impacted by ISIS 
in Syria and elsewhere. The visas are for those displaced in 
Syria, Turkey, Jordan, and Lebanon.
    I would like to also add that Deputy Assistant Secretary of 
State Brett McGurk tweeted the following remarks yesterday, 
which we are in full support of: ``Iraq's National Program, 
adopted last night, calls for the formation of National Guards 
`from sons of each province' to secure local areas.''
    We think the long-lasting solution for minorities in the 
Middle East, specifically the Christians in Iraq, is for them 
to have their own safe haven that is protected initially by 
international forces and subsequently by their own members in 
which they can secure an area that would be part of the greater 
Iraq but have some sort of self-governance.
    Thank you very much for your time, and I look forward to 
speaking with you in the future.
    [See the appendix for the prepared statement of Mr. Oram.]
    Mr. Smith. Thank you very much for your testimony and for 
conveying those very strong sentiments to the two 
subcommittees.
    Just a few questions, and, again, I apologize for the 
lateness and thank you for your patience with the intervening 
votes that we had.
    I just want to note that Dr. John Eibner is in the 
audience, and he testified at our hearing on Syria last June. 
And the issue was very strongly made by the panel of experts, 
of which he is an admitted expert, about this being--what is 
going on then in Syria. Now, of course, that border has been 
breached, and it is Iraq as well, that there is genocide.
    And as Ambassador Galbraith pointed out by simply reciting 
the definition, if this doesn't rise to the level of genocide, 
I don't know what does. And my question would be, in your view, 
what would be triggered if that word were to be used in a 
demonstrative fashion? If the genocide convention, the expert 
treaty body, were to take this up? It is my understanding that 
both countries are signatories to it.
    It certainly would have a level of focus that it continues 
to evade. And if you could, while you are answering, you did 
talk about how we should do more, the United States, to assist 
the KRG in the care of the displaced Iraqi and Syrian refugees 
in Kurdistan.
    You do point out that the Iraqi Government has been 
derelict in providing funds that they are obligated to provide. 
Are we, the United States, using our diplomatic leverage, our 
Ambassador, Secretary of State, and others, to admonish, if not 
insist, that the Iraqi Government live up to those obligations?
    You also point out that Kurdistan needs the weapons to 
defend itself. Yes, there are some weapons flowing. Is it 
sufficient in your opinion?
    And if I could also ask--again, I thought, Dr. Farr, you 
made a very important series of recommendations, and I did read 
some of those, some of your testimony, to Tom Malinowski in 
particular during his presentation. And I did ask him how he 
responds, how does the administration respond, not only to 
being late, which I believe is a no-brainer, they were late, 
they were asleep at the switch. I mean, many of us were saying 
this 1 year ago, 1\1/2\ years ago, and others were saying it 
even before that, while the President golfed.
    And my question would be about not utilizing the very 
significant tools embedded in the International Religious 
Freedom Act. One of the beliefs or one of the undergirding and 
important elements of that law is to train Foreign Service 
Officers. You talk about, and your points are well taken, that 
we need to update the law, make it mandatory in a number of 
areas. That seems not to happen. Or if it is, it is part of a 
module somewhere in their training that almost diminishes it in 
application and by its juxtaposition to other things.
    So if you could speak to this low priority under the 
current President to promoting religious freedom. And I think 
your point is missed by most people in this discussion, and the 
others might want to speak to this as well. That when you get 
the Saudi Arabias of this world and the others, you know, with 
their anti-apostasy laws and your example, which you didn't 
read, but it is worth noting for the record orally, of the 
person in Afghanistan who wrote a statement--where was that--a 
graduate student in Afghanistan submitted a research paper that 
argued from the Koran that Islam supports the equality of men 
and women.
    His professors turned him in to local police. He was 
charged with blasphemy, convicted, and sentenced to death. I 
mean, Afghan is a country where the United States spent 
considerable treasure and, more importantly, lives--and I used 
to chair the Veterans Affairs Committee, and I have been in so 
many veterans' hospitals over the course of my 34 years. Men 
and women are walking around missing limbs, and then this 
particular student is condemned to death because he talks about 
equality between men and women.
    That is where that strategy I think that you are talking 
about needs to be far more robust than it has been. So if you 
could elaborate on that, and any other points any of you would 
like to make before we conclude the hearing.
    Ambassador Galbraith.
    Ambassador Galbraith. Thank you. You would think with all 
the years I was at the Foreign Relations Committee I would at 
least know the mechanics of this.
    The first question you asked was, what are the implications 
of saying something is genocide? In my testimony, I discuss 
Samantha Power's book. Of course, she is now our Ambassador to 
the U.N. But her argument is that U.S. policy on genocide has 
done exactly what Presidents have wanted it to do, Presidents 
of both parties, which is nothing.
    And that is why when I was Ambassador to Croatia, Secretary 
of State Christopher went to great contortions to avoid 
describing what was going on in Bosnia as genocide, because if 
it is genocide we would have to act. And while I have some 
criticisms of President Obama--and, in fact, I started writing 
on August 7 and had had accepted an op-ed earlier that day 
criticizing him for not using the word ``genocide,'' he in fact 
did use the word ``genocide.'' And I think that is really 
important, because once it is genocide, we have an obligation 
to act.
    President Obama described it as potential acts of genocide. 
It isn't potential acts of genocide. Genocide actually took 
place, because ISIS is engaged in killing with the intent of 
exterminating the group. That is very much within the four 
corners of the treaty, perhaps the most clear-cut case that I 
can think of. Even if the level of killing doesn't match some 
other recent cases, the intent is abundantly and completely 
clear.
    So there is an obligation on the part of the United States 
and on the part of other countries to act. It is both a legal 
obligation and a moral obligation.
    On the question of U.S. aid to Kurdistan, and I emphasize 
that because the only place where people are safe is in the 
Kurdistan region. And the only reason they are safe is because 
the peshmerga is defending them, but it also imposes an 
enormous burden on the local government, and especially Dohuk 
Governorate, which is where most of the people have gone, it is 
the area that is closest to Sinjar, there is one refugee for 
every resident of that region. And so imagine you have a 
situation where the government in Baghdad has not been 
providing the money for services for 7 months, and your 
population doubles. No wonder people are sleeping in the 
streets and are having a hard time getting medical services, 
and that kind of thing, because the resources are not there.
    And in some ways it is quite extraordinary that the 
Kurdistan Government and the population has been as forthcoming 
and generous as it has. It has a second problem, which is it 
doesn't know who all of these people are. There has been 
exactly one major act of terrorism in Kurdistan since 2003, and 
those were the bombings that took place on February 1, 2004.
    There have been a few minor attacks, but their whole 
economy--and until last year it was the fastest growing place 
in the world economically--depends on the security. They have 
more than 1 million IDPs, not all of whom are Christians and 
Yezidis. Some are Sunnis. How do they vet them? They need 
assistance to take care of people, erect camps.
    And that, then, leads to the need for military assistance. 
There were 17 Iraqi divisions, my understanding--this may not 
be exactly right, but roughly right--at the beginning of 2014. 
There may be five now. The peshmerga, there is no doubt that 
they were pushed back, and I think that has been deeply 
shocking to the Kurdistan Government. And there is a 
recognition that they need to do more training. A lot of people 
had--they hadn't fought since 2003. Now they have gone on to 
help develop their own country, but now they recognize they 
need to do more training, but they were absolutely 
underequipped as compared to what ISIS had.
    But the important point is, when they withdrew, they 
withdrew as units. So they are there. They are capable of being 
armed. And if you want to talk about the defense of these 
people, of the people who have come there, including 
Christians, Yezidis, the Shabaks, the Shiites, then we need to 
arm them.
    Air power, as has been said earlier, it only works when 
there are forces on the ground. There is no prospect of U.S. 
forces on the ground, but these are forces on the ground that 
we can help with our air power.
    You asked, are we sufficiently engaged in the diplomatic 
leverage? Well, the fact is that all of the leverage we have 
been using has been on the Kurdistan Government and the Kurdish 
Block to join the Government of National Unity. They did so in 
the most openly reluctant way. They had a series of demands. 
Frankly, Prime Minister al-Abadi didn't engage on--in a 
discussion on those demands. None of them were met.
    There are three Kurdish Ministers--three out of 30, 
although their share of the population of the Parliament would 
entitle them to six. They actually refused to be sworn in. They 
have said, ``We are going to give al-Abadi a 3-month trial 
period.'' This really isn't a government of national unity. 
They have said very clearly that the only reason they joined at 
all was U.S. pressure and the deadline related, frankly, to the 
President's speech tonight.
    But there hasn't been, in my view, sufficient leverage on 
doing some pretty basic things, like paying the budget. Yes, 
there is a dispute over the oil issue, but, frankly, that can 
be set aside. The Kurds have been clear they are prepared to 
share the revenues. So let it go forward, share the revenues, 
and then resolve it later. Don't try to fight this internal 
political battle at the time that the country is in grave 
peril. But that is exactly what the previous Iraqi Government 
has done, and there is no sign that the new one is doing 
anything----
    Mr. Smith. Mr. Ambassador, if you don't mind me 
interrupting, how much are we talking about? I mean, ballpark.
    Ambassador Galbraith. I think it is in the range of $10 
billion. It is a lot of money. And that is not an amount of 
money that can be made up with money from UNHCR or from USAID. 
First, it isn't the kind of money that international agencies 
provide. It is for salaries, it is to pay the police, to pay 
the peshmerga, to pay teachers, to run the electricity, all the 
things that go with a functioning state.
    And, finally, you asked whether the military assistance was 
sufficient. And the answer is in terms of the small arms I 
believe it is now sufficient. But if you are talking about a 
force that is self-sufficient, able to defend their territory, 
able to help recover the Nineveh Plain, because much as one 
might like to see an international force there, I think we know 
that isn't going to happen, and certainly not in the 
foreseeable future.
    So if that is to be done, then the one force that is 
capable of doing it is the peshmerga, but they need tanks, 
MRAPs, helicopters, and training. I think that is the only 
realistic possibility. The Iraqi Army is not even close to 
there. I mean, just look at the map and you will see where ISIS 
is.
    The Kurds make the point that they have a 1,500-kilometer 
border with ISIS and 30 kilometers with Iraq. So the 
possibilities of joint operations are really limited. They are 
the force that is close to Mosul. They are the force that is 
close to the Nineveh Plain. They are the force that is still 
intact.
    So, yes, it is good that things are started, but not 
sufficient.
    One further point, we have an arrangement now in which the 
arms that are going to Kurdistan, the planes fly to Baghdad, 
and then fly to Kurdistan where they are inspected and where 
presumably any shipment could be stopped. That also is 
ridiculous.
    If there really was a concern about the country and about 
fighting the common enemy, you wouldn't be having that kind of 
cumbersome system. The flights would go straight to Kurdistan, 
to the airports in Erbil and Suleimaniya. And, frankly, at this 
point, one of the Kurdish demands, which hadn't been a previous 
issue, is that they should control their own airspace.
    Why? Because the government, after June, as I said in my 
prepared testimony, actually closed down the airspace to stop 
the peshmerga from being able to defend themselves, even though 
they were also defending many non-Kurdish Iraqis. At least 20, 
25 percent of the people there are not Kurds. They are other 
Iraqis who have fled there.
    Mr. Smith. Thank you.
    Mr. Farr. Mr. Chairman, if I might first just say that 
Patriarch Sako played a part in my prepared testimony. He is a 
good and holy man who is, frankly, a hero of mine. I had the 
honor to meet him at a conference we did in Rome in December, 
and I hope that you will convey that back to him. I will give 
you a copy of my prepared remarks that reflect some of the 
things that he has had to say that he repeated in what was said 
today.
    I will be brief, conscious of the lateness of the hour. Let 
me make three points, Mr. Chairman, and offer to the committee, 
if useful, to provide elaboration in writing. You asked why you 
think this is such a low priority. There are many technical and 
pretty good answers to that. I think there is a big picture 
answer. Religious freedom is no longer seen as the first 
freedom by many of our political and foreign policy elites.
    By ``first freedom,'' our founders understood it to mean 
``necessary to individual human flourishing and to the success 
of any society.'' We no longer believe that, and that is why we 
are not very effective in convincing others that it is good for 
them. We don't even try. I'm happy to elaborate.
    Second, you mentioned the training recommendation I made. I 
want to say something good about this administration, 
particularly under Secretary Clinton. As you know, Mr. 
Chairman, there was begun a 3- or 4-day course on religion and 
foreign policy at the Foreign Service Institute. I have been 
honored to teach there several times.
    The problem with it is that it is voluntary, and the people 
that go have time to go, and, you know, you get lucky 
sometimes. But mainly it is folks that have time on their hands 
rather than the people that need to be trained. And even the 
course that exists, it kind of goes like a college seminar, and 
I think sometimes people are entitled to be confused when they 
come out of a debate on whether all of this is unconstitutional 
or not, whether we should be doing it at all.
    Well, you know, if you want to have that, have it at 
Georgetown. But teach our Foreign Service Officers how to 
promote religious freedom. The law says do it; let us do it. We 
are not doing that, and I think it is not a complicated point.
    Finally, the Afghan grad student, thank you for bringing 
that up. This young man is a Sunni Muslim, pious as far as I 
know. He was punished for writing a graduate term paper because 
he was taken to be offending Islam.
    The idea that those who offend Islam must be punished is a 
malevolent idea. I once wrote a piece, ``The Idea that 
Threatens the National Security of the United States.'' That 
idea is it. This is not unusual in religious history. The 
Catholic Church, for a long time, frankly, had to get over the 
idea that it had to punish those who either left it or 
criticized it.
    And one of the great examples is Dignitatis Humanae of 1965 
where the church said, ``We no longer claim privileged 
authority to civil and political authority to silence those who 
disagree. What we demand is freedom to make our claims.'' And 
we require that for everybody else.
    What if Islam could come--all the Muslim majority countries 
of the world could come to that very simple but very powerful 
idea? It doesn't mean that it is good to criticize somebody's 
religion. It simply means that if you criticize my religion, 
which, frankly, I believe the New York Times does daily, the 
response is not violence. That is the idea that threatens peace 
and, frankly, freedom in the world.
    Thank you.
    Mr. Smith. Ms. Warda?
    Ms. Warda. Thank you very much. I would like to come back 
to the diplomatic assistance. I think it is very, very 
important to see that we can do something. As America, as I 
think all democratic countries, it is in their hands to put 
pressure on countries which we know they support ISIS.
    So the pressure, I don't know, in political--other 
political ways, but it is in the hands of countries to really 
be aware of this dramatic situation, which is genociding people 
and with indifference.
    The second point I would like to mention is the 
humanitarian help. The humanitarian help I think is not 
necessarily--and we saw this experience of Iraq--is not 
necessarily--will arrive on time and in good way just 
throughout the officials. I think the NGOs are there, and they 
are the most present, more than all governments, even Baghdad, 
even KRG, which is really--KRG, which is the area which really 
receives and serves all those people.
    But for this humanitarian help, I think NGOs they are the 
most concerned, and they are the most present. So please, we 
would like to ask you to really insist on NGOs role, directly 
to NGOs present in the area to help because this is, you know, 
the bad time and we would like not to press our time and 
policies and trainings, and et cetera, et cetera. That is the 
way of officials, and NGOs are really not very welcome in this, 
because we say, ``No, now we must do.''
    Thank you very much.
    Mr. Smith. Thank so very much to each of you for sharing 
your extraordinary insight and wisdom with the two 
subcommittees. This will obviously help all of us be better 
informed going forward.
    You know, the world awaits what the President has to say 
tonight. I hope we are not disappointed, and I hope especially 
those who are beleaguered and being destroyed, literally, 
exterminated, get a ray of hope from tonight's speech by the 
President.
    We have received letters, written submissions from the 
following organizations, which will, without objection, be made 
a part of the record, the Chaldean American Chamber of Commerce 
of California, Yezidi Human Rights Organization International, 
One Free World International. And hearing no objection, they 
will be made a part of the record.
    Again, thank you so very much. The hearing is adjourned.
    [Whereupon, at 5:02 p.m., the subcommittees were 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

Statement for the record from His Excellency Ibrahim N. Ibrahim of the 
               Chaldean Eparchy of St. Thomas the Apostle


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

Statement for the record from Mr. Johnny Oram of the Chaldean American 
                   Chamber of Commerce of California


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Statement for the record from Rev. Majed El Shafie of One Free World 
                             International


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               __________

 Statement for the record from Mr. Mirza Ismail of Yezidi Human Rights 
                       Organization-International


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]

</pre></body></html>
